<html>
<title> - NEWS Act</title>
<body><pre>[Senate Hearing 113-428]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-428
 
                                NEWS Act 

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   TO

    HEAR TESTIMONY ON S. 1971, THE ``NEXUS OF ENERGY AND WATER FOR 
                      SUSTAINABILITY ACT OF 2014''

                               __________

                             JUNE 25, 2014


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

90-862 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                   MARY L. LANDRIEU, Louisiana, Chair

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                Elizabeth Leoty Craddock, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                     BRIAN SCHATZ, Hawaii, Chairman

TIM JOHNSON, South Dakota            MIKE LEE, Utah, Ranking
MARIA CANTWELL, Washington           JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             JAMES E. RISCH, Idaho
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina

   Mary L. Landrieu and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Carter, Nicole T., Ph.D., Specialist in Natural Resources Policy, 
  Congressional Research Service.................................    16
Dickinson, Mary Ann, President/CEO, Alliance for Water Efficiency    24
Iseman, Tom, Deputy Assistant Secretary for Water and Science, 
  Department of the Interior.....................................    11
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Pershing, Jonathan, Principal Deputy Director, Office of Energy 
  Policy and Systems Analysis, Department of Energy..............     4
Ray, Anda, Vice President for Environment and Chief 
  Sustainability Officer, Electric Power Research Institute......    20
Schatz, Hon. Brian, U.S. Senator From Hawaii.....................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    41

                              Appendix II

Additional material submitted for the record.....................    49


                                NEWS Act

                              ----------                              


                        WEDNESDAY, JUNE 25, 2014

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:31 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Brian Schatz 
presiding.

   OPENING STATEMENT OF HON. BRIAN SCHATZ, U.S. SENATOR FROM 
                             HAWAII

    Senator Schatz. Good afternoon.
    Today we will receive testimony on S. 1971, the Nexus of 
Energy and Water for Sustainability Act of 2014, also known as 
the NEWS Act. Earlier this year Senators Murkowski and Wyden 
introduced S. 1971. I'm pleased to be a co-sponsor along with 
Chairwoman Landrieu and Senator Tom Udall.
    The term energy/water nexus is very popular these days and 
for good reason. Water is necessary to produce many forms of 
energy. Energy is required to move and treat water. The ongoing 
drought in many parts of the country coupled with the need to 
curtail certain power plants because of insufficient water 
supplies demonstrates the critical connection between energy 
and water.
    In my home State of Hawaii we are on the forefront of a 
changing climate. It may seem counter intuitive but Hawaii is a 
water stressed State that often faces serious drought 
conditions. Over the last several years the Department of 
Agriculture has listed major portions of Hawaii as facing 
severe and even exceptional drought conditions. This means that 
we, in Hawaii, must think carefully about our water use.
    I believe there are a few key steps that are critical to 
furthering the energy/water nexus discussion.
    The first is there's clearly a need for high quality 
standardized data on both energy and water.
    The second is the need for the Federal Government to act as 
a centralized hub of energy/water knowledge.
    The NEWS Act directly addresses both of these needs. The 
bill promotes information sharing across the public and private 
sectors and creates a Federal interagency coordination 
committee to help the Federal agencies better understand the 
energy/water nexus and begin taking meaningful access, excuse 
me, action.
    We look forward to hearing from the panel. I will, as you 
are aware, we have 7 votes starting right now. So I will gavel 
out, recess and then the Ranking Member, Senator Murkowski will 
come back at 3:30 to continue the hearing.
    [RECESS]
    Senator Baldwin [presiding]. Good afternoon.
    I am delighted to be temporarily chairing and so unexpected 
was I for this that my first line is thank you, Chair Landrieu 
and Ranking Member Murkowski for holding this important 
hearing.
    I'm actually going to reserve my opening statement for when 
we begin the question and answer.
    Delighted to have our witnesses here.
    Delighted to have an opportunity to highlight the important 
nexus between energy and water.
    This is something that's incredibly important to my State 
of Wisconsin. I'm going to get into that a little bit more when 
we have our chance for questions and answers.
    But I would yield to Ranking Member Murkowski for her 
opening statement.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you.
    I'm pleased that we are able to have an uninterrupted 
period of time for this hearing. I would agree, Senator 
Baldwin, this is an important one.
    I appreciate the indulgence of the 5 panelists that have 
joined us today. Thank you for appearing here this afternoon. 
We apologize for the somewhat disjointed Senate schedule, but 
as they say around here, it is what it is.
    So I did speak with Senator Schatz on the Floor and he was 
glad to be able to start things off, but indicated that you and 
I would be doing the team here. So we'll have a good 
opportunity to visit with you and gain your input.
    The energy/water nexus is a very important issue, certainly 
to me, I think to folks everywhere. It's pretty basic stuff. 
Water is essential in every aspect of our daily life. In 
addition to its vital role in sustaining life, it's crucial for 
the Nation's economic well being and sustained growth. Without 
water there's no electricity, no fuel to power our industry, 
our means of transportation and no plants to produce biofuels. 
This is the water for energy that we cannot do without.
    When it comes to energy for water we need energy to convey 
water from its source to its consumers. We need the energy to 
pump and treat and increasingly, to reuse our water in the 
numerous waste water treatment plants that we have around the 
country. We obviously need water to treat and provide safe and 
readily available drinking water.
    In addition to the legislation that we're talking about 
today, S. 1971, I recently released a white paper on the 
energy/water nexus interlinked resources that are vital for 
economic growth and sustainability. I did supply a copy of it 
to all my colleagues here on the committee. I would hope that 
most of you have seen it.
    You know, you always take a little bit of pride in 
authorship. But I do think it is important that, from a policy 
perspective, we always be thinking about where water fits in to 
our discussion here. The paper provides a more detailed 
description of the nexus issues and the linkages between the 
two resources. In it I also detailed how the Federal Government 
can work with external stakeholders, particularly the private 
sector to facilitate the technological innovations needed to 
make a real difference in the efficient and sustainable use of 
these important resources.
    So the legislation that I've introduced which is S. 1971, I 
introduced with Senator Wyden back in January. It calls for 
several important actions that the Federal Government can do to 
initiate and sustain public/private partnership on the energy/
water nexus issues. The legislation further seeks to streamline 
the government's activities across the various departments and 
agencies to minimize duplicative efforts and hopefully, save 
taxpayers money.
    I also welcome the report that DOE released just last week, 
the Water/Energy Nexus Challenges and Opportunities. I think 
that this is a good first step as we look to implement 
constructive energy/water nexus related programs within our 
Federal Government. But it does leave unanswered, at least one 
question out there. That's pretty basic, is how we're going to 
accomplish that?
    How do we get there? That's a question that I'm going to be 
looking forward to, kind of, probing you all on today. I think 
that my legislation can provide a path forward on the 
implementation.
    This bill is co-sponsored by not only the Chair of the 
subcommittee, Senator Schatz, but also by Senators Landrieu, 
Senators Udall and I understand you, which I appreciate that, 
Senator Baldwin.
    I also want to thank a number of organizations for their 
support including the Alliance for Water Efficiency, the Family 
Farm Alliance, the International Association of Plumbing and 
Mechanical Officials, the National Association for Clean Water 
Agencies, the National Electric Manufacturers Association and 
the Water Reuse Association.
    So I've got letters of support that I've received on this 
bill that I would ask be included in the hearing record.
    But again, I look forward to the comments from witnesses 
today and the time that you've given to this very important 
issue.
    With that, Madame Chair, I thank you.
    Senator Baldwin. Without objection for the inclusion of the 
reports.
    I'd like to welcome our witnesses today. I'm going to 
briefly introduce you by title and then have you present 
testimony in the order that you're seated and hopefully the 
order that I will introduce you.
    Dr. Jonathan Pershing is the Principal Deputy Director for 
Energy Policy and Systems Analysis and Deputy Assistant 
Secretary at the Department of Energy.
    Mr. Tom Iseman is a Deputy Assistant Secretary for Water 
and Science at the Department of Interior.
    Ms. Nicole Carter is a Policy Expert at the Congressional 
Research Service.
    Ms. Anda Ray is the Vice President for Environment and 
Chief Sustainability Officer at the Electric Power Research 
Institute.
    Ms. Mary Ann Dickinson is the President of the Alliance for 
Water Efficiency.
    Thank you all again for being here, for your patience while 
we vote.
    Why don't we start with your testimony, Dr. Pershing.

  STATEMENT OF JONATHAN PERSHING, PRINCIPAL DEPUTY DIRECTOR, 
  OFFICE OF ENERGY POLICY AND SYSTEMS ANALYSIS, DEPARTMENT OF 
                             ENERGY

    Mr. Pershing. Thank you very much. Thank you, Senator 
Baldwin. Thank you, Senator Murkowski and through you, thank 
you to the entire subcommittee. I think it's a really 
tremendous opportunity to engage on this critical issue.
    We certainly have a number of views. I'll share some of 
them here. I have a somewhat longer written testimony which we 
have submitted.
    I think that the point that both of you have made and 
Senator Murkowski, you certainly elaborated on this and your 
report does as well, about the interactions between energy and 
water. We see them in very much the same way that you do and 
have articulated them perhaps in a somewhat more elaborate 
fashion in a much longer report. But your short document, I 
think, captures some of those key intersections.
    But what's interesting to me is that given the inter 
linkage it's historically interesting that we have not, for the 
most part, developed these together. We tend to treat them in 
stove pipes. They're somewhat separable and unique.
    But recently we think that some of the events out there in 
the world are focusing attention on the inter linkage. In that 
sense there's also a set of growing vulnerabilities that we 
have to pay attention to and that are quite critical.
    Let me take some examples. We can start with a look at the 
drought from 2012, (you don't have to go back very far--I'll 
come back to the more recent examples in just a minute). In 
2012, limited water availability constrained the operation of 
power plants. We're certainly seeing that.
    This year, now, we have an example of where we are early in 
the season in California. Snow pack is only about 20 percent of 
normal. If you look at the projected consequence we could see 
the curtailment of something like 1100 megawatts of power. So 
it's a huge number, very significant playing out at this 
intersection.
    Neither our energy nor our water systems, of course, are 
static. If we take a look at what things are changing.
    We have changing demand.
    We have new technologies.
    We also have climate change.
    All affecting these systems.
    At the same time the systems are supported by private 
infrastructure. There is investment that's not public as well 
as public investment, and also Federal and State and local 
stakeholders with very clear interests. So arguably we're going 
to have to have collaboration engaging multiple actors to 
achieve a resilient system over time.
    There are 4 major areas where we see the Department able to 
leverage some of our core competencies.
    First, on integrated data, modeling and analysis. We can 
inform a systems understanding in support of decisionmaking.
    Second, strategic investments in technology research where 
we can address system vulnerabilities and opportunities.
    Third, policy analysis that can illuminate institutional 
barriers.
    Fourth, stakeholder engagement where we can help streamline 
the pathways for deployment and implementation.
    Building on the core competencies and thinking about these 
areas where we have capacity, we created a cross cutting 
internal group which we call the Water Energy Technology Team 
or the (WETT which is a nice little acronym), in the fall of 
2012. It brings together over 100 participants from more than 
20 different offices within the Department. We're pursuing a 
variety of cross cutting activities.
    We've hosted workshops with the National Laboratories, 
which have scoped out data needs and options for future 
analysis there.
    We're working with other agencies. For example, we've 
worked with EPA to identify areas for collaboration on the 
efficiency of water treatment, the energy demands on water 
treatment.
    In the Office of Fossil Energy, we have a funding 
announcement which is looking at innovative uses of waste heat 
from power plants and energy efficient water treatment options.
    These are just a few examples.
    One of the major accomplishments was the release of our 
report (and you mentioned it a moment ago) called ``The Water/
Energy Nexus: Challenges and Opportunities''. It analyzes 
physical interconnections between the systems and the complex 
decisionmaking landscape that we see.
    Let me briefly describe some of its key conclusions:
    Energy and water systems are highly interdependent.
    We can't assume that the future is like the past in terms 
of climate, technology or decision landscapes.
    Water scarcity, variability and uncertainty are becoming 
much more prominent potentially leading to increased 
vulnerability in the system.
    We need a more integrated approach to addressing the 
challenges and opportunities at this nexus.
    We think that we, at DOE (and we explain some of this in 
the report), have some key competencies that could contribute 
to this conversation.
    While it's a lengthy report, it's only a first step. 
Senators, you've also outlined, both of you, some of the needs 
for moving forward. We have to engage others outside the 
Department, stakeholders in other agencies and outside the 
government in successes. In this spirit we very much look 
forward to the discussion with you.
    Before I conclude let me just say a few words on S. 1971.
    The Administration is still reviewing the bill and doesn't 
yet have a formal position. But I'd note that we very much 
applaud the committee's efforts to address this really 
important issue. We're in agreement that a close level of 
communication and coordination among agencies is important to 
advance our work.
    We think that DOE can make a contribution. Moving ahead we 
look forward to working with the committee as we take next 
steps. Thank you very much.
    I look forward to any questions.
    [The prepared statement of Mr. Pershing follows:]
  Prepared Statement of Jonathan Pershing, Principal Deputy Director, 
   Office of Energy Policy and Systems Analysis, Department of Energy
    Chair Landrieu and Chairman Schatz, Ranking Members Murkowski and 
Lee, and members of the Subcommittee, thank you for the opportunity to 
testify on behalf of the U.S. Department of Energy (DOE) on S. 1971, 
Nexus of Energy and Water for Sustainability Act of 2014. The 
Administration has not completed its review of the bill.
    Last week, the Administration released a report entitled The Water-
Energy Nexus: Challenges and Opportunities (U.S. Department of Energy 
2014). This report provides a comprehensive analysis of the water-
energy nexus and its many dimensions. Energy and water systems interact 
physically in many settings, including electricity generation, oil and 
gas production, bioenergy production, water treatment, and commercial 
and industrial facilities. Energy and water systems collectively 
include private infrastructure and investment, as well as Federal, 
state and local interests. Continuing analysis will be necessary to 
prioritize the appropriate collective approach, including the agencies 
(private, state, local, or Federal) and shares of any costs and 
responsibilities.
    The effort to date demonstrated by the extensive research and 
comprehensive nature of this report illustrates the Administration's 
attention to this issue. In my testimony, I will provide an update on 
the Department's activities in this area--one where I believe we share 
a mutual interest and concern. As we pursue our important mission areas 
of climate change, energy security and environmental responsibility, we 
must take into account dynamic interactions among our energy system, 
the population, the economy, other infrastructure systems and natural 
resources. One crucial interaction is that between our present-day 
energy and water systems.
                        the energy-water system
    Action is required by private industry, as well as Federal, state, 
and local governments to ensure the development of the resilient, 
coupled energy-water systems of the future. We believe that the Energy 
Department, working in close cooperation with our interagency 
colleagues, is well positioned to help address the issues surrounding 
the energy-water nexus.
    In particular, the Department can leverage its core competencies 
around four major strategic elements, including: user-driven, 
integrated data, modeling and analysis (DMA); strategic technology 
development; policy analysis; and stakeholder engagement.
    Ultimately, we seek to:

  <bullet> Advance next-generation, user-driven toolsets for deeper 
        insights and planning, drawing on leading capabilities at our 
        national laboratories while working in concert with the 
        Nation's university community;
  <bullet> Develop options for new solutions through strategic 
        investments in technology research that target high priority 
        opportunity areas;
  <bullet> Analyze the policy space and ways to overcome institutional 
        barriers that are preventing efficient and effective evolution 
        of more resilient coupled energy-water systems; and
  <bullet> Engage stakeholders in continuing discussions about 
        alignment of these activities, pathways to implementation, and 
        ways to create flexibility and institutional incentives in a 
        rapidly changing decision landscape.

    Our rationale for such action is clear: energy systems depend on 
water for nearly all phases of energy recovery, production, and 
electricity generation. Although some forms of renewable energy use 
very little water, overall, the dependency of the Nation's energy 
system on water is profound. Similarly, energy is essential to extract, 
convey, and deliver water of appropriate quality and quantity for 
diverse human uses, and then again to treat wastewaters prior to their 
return to the environment. Many operations in the energy sector rely on 
water, and many operations in the water sector rely on energy. They are 
inextricably linked. Developing ways to make our Nation's energy system 
less dependent on water will reduce stress on the available water 
supply and, as the Nation's energy system evolves, make sure that the 
needs of the newly configured system can be met.
    Given this tight inter-linkage, it is noteworthy that historically, 
energy and water systems have for the most part, been developed, 
managed, and regulated independently. However, recent events have 
focused attention on emerging stresses and growing vulnerabilities at 
the energy-water nexus, raising concerns about how we think about and 
engineer this interconnection. To list only a few:

  <bullet> When severe drought affected more than a third of the United 
        States in 2012, limited water availability constrained the 
        operation of power plants and other energy production 
        activities. Under such conditions, thermal efficiency decreased 
        (meaning less power from each affected facility), water 
        discharge temperatures increased, and with the latter there is 
        increasing probability for compounding the problem through de-
        rating (reducing operations from full capacity) to manage 
        discharge within acceptable limits. It is significant that 
        approximately 40 percent of all freshwater withdrawals (and 49 
        percent of all combined fresh and saline water withdrawals) in 
        the U.S. are for thermo-electric cooling. Energy and 
        agriculture often compete for scarce water resources, a dynamic 
        only partially offset by the fact that energy demands are 
        largely non-consumptive uses (meaning water is returned) 
        whereas agriculture are largely consumptive.
  <bullet> Hurricane Sandy demonstrated, in very real terms, the 
        implications of another extreme weather event and the stresses 
        encountered by the coupled system, such as power losses 
        preventing the delivery of clean water as well as the treatment 
        of wastewater and basic sanitation.
  <bullet> The recent rapid expansion of unconventional oil and gas 
        development facilitated by hydraulic fracturing and horizontal 
        drilling has also highlighted issues and catalyzed national 
        discussions about energy and water interdependencies. There are 
        implications not only for water quantity, but water quality as 
        well. It is noteworthy that many productive fields are in arid 
        and semi-arid regions.
  <bullet> Increasing water demands in arid areas can lead to 
        increasing energy demands, with the trend toward increasing 
        vulnerability. Figure 1* and Table 1 (included at the end of 
        this text) reflect some of these growing demands for energy to 
        manage water supplies in select western states.
---------------------------------------------------------------------------
    * Figure has been retained in subcommittee files.

    The water-energy infrastructure is long-planned and long-lived. 
Many factors influence our decisions on the coupled energy-water 
system, including changing weather patterns, population growth and 
migration, shifting patterns in economic development, changes in land 
use and land cover, technology development and deployment, and policy 
and institutional changes. This complex planning environment presents 
both challenges and opportunities. At the Department, and throughout 
the government, we need to better understand the system to ensure it is 
robust and resilient in the long term.
    With that goal of better understanding the system, I would now like 
to turn to current efforts of the Department on two fronts. The first 
is the creation within the Department of a cross-cutting organization, 
the Water Energy Technology Team (WETT) and its accomplishments to 
date.
    The second is last week's release of the major report entitled The 
Water-Energy Nexus: Challenges and Opportunities that I touched on at 
the beginning of my testimony.
                      water-energy technology team
    While DOE has been conducting research and development (R&D) 
related to the energy-water nexus for more than a decade, the formation 
of the WETT was prompted primarily by the Fall 2012 release of the 
fifth in a series of related reports from the Government Accountability 
Office (GAO) (GAO 2012). Following the GAO's recommendations, the DOE 
conducted a series of internal workshops in the fall of 2012 focused on 
power plant cooling, water in energy production, and DMA.
    This effort also leveraged two significant and related activities 
undertaken by DOE's basic research program, the Office of Science. The 
first was a research community workshop involving representatives from 
many ``water-interested'' agencies. The resulting report, Community 
Modeling and Long-Term Predictions of the Integrated Water Cycle (DOE 
Office of Science 2012), has had impact on the conceptual framing of 
this topic.
    The second was a study on Climate and Energy-Water-Land System 
Interactions (PNNL 2012), summarizing results of a second workshop and 
follow-up analyses that similarly involved other agencies and agency-
designated scientists. This activity was coordinated through two 
working groups of the U.S. Global Change Research Program. These two 
workshops and corresponding reports helped inform the scope of the 
problem, the research needs, and the range of tools and capabilities 
that would be required to address the integrated DMA challenges. They 
helped to broaden our vision of important, complex dynamics. For 
example, and particularly for the second report, they informed our 
understanding of the increasing energy demands in arid areas, issues 
associated with thermal discharge restrictions, and, more generally, 
variation and characteristic differences spanning regions. 
Additionally, the latter report made a strong case for the need to 
consider land-use and land-cover change as a key element when exploring 
the energy-water nexus.
    As a result of the findings from these workshops and analyses, DOE 
formed the Water-Energy Technology Team that now includes well over 100 
participants from more than 20 offices within the Department. It also 
includes representation from the national laboratories. It is currently 
organized into four working groups: (1) Data, Modeling, and Analysis, 
(2) Policy Frameworks and Analysis, (3) Stakeholder Coordination and 
Outreach, and (4) Technology Research, Development, Demonstration, and 
Deployment. These working groups, and the topics they address, are seen 
as part of an integrated systems approach.
    A sampling of current cross-cutting activities includes, but is not 
limited to:

  <bullet> The Data, Modeling, and Analysis team, which has:

    --Gathered more than 30 representatives from 11 national 
            laboratories in early May of 2014 to begin considering 
            options for future energy-water analysis strategies;
    --Instituted mechanisms to improve connections and synergies 
            between offices;
    --Engaged other agencies for DMA, including the formation of a new 
            ad hoc interagency working group for climate model 
            downscaling to gain deeper, more consistent, and 
            scientifically rigorous insights into U.S. regional climate 
            outlooks for parameters of particular interest at the 
            energy-water nexus;
    --Developed an extensive inventory of DOE and national laboratory 
            core capabilities; and
    --Engaged the research community in various workshops and related 
            venues.

  <bullet> The Office of Fossil Energy recently released a Funding 
        Opportunity Announcement that includes requests for innovative 
        uses of waste heat from power plants, low-cost water treatment 
        options, and novel concepts for high-temperature heat exchange, 
        all of which have water-energy implications.
  <bullet> ARPA-E recently held a workshop on breakthrough 
        possibilities for air cooling of power plants (and other 
        applications).
  <bullet> Through their most recent open solicitation, ARPA-E has 
        invested in a project that takes a novel approach to the 
        recovery of energy from waste heat via a closed-loop salt 
        water/electricity generation cycle.
  <bullet> The Bioenergy Technology Office within the Office of Energy 
        Efficiency and Renewable Energy (EERE) put out a Request for 
        Information on the general topic of bio-waste-to-energy in FY 
        2014, and is planning a workshop on the topic in preparation 
        for possible solicitations in FY 2015. Plans are to include 
        both the EPA and external stakeholders in this effort.
  <bullet> The Advanced Manufacturing Office within EERE is supporting 
        a project that was competitively awarded under the Innovative 
        Manufacturing Initiative FOA and that proposes a unique 
        combination of forward osmosis, membrane distillation, and 
        anaerobic membrane bioreactors in order to achieve dramatic 
        reductions in the energy requirements of industrial and 
        municipal wastewater treatment.
  <bullet> The EPA and DOE are working closely together to identify 
        potential areas for collaboration in improving the energy 
        efficiency of water treatment, including the possibility of 
        distributed generation of electricity from wastewater treatment 
        plants.
  <bullet> The Energy Policy and Systems Analysis office has planned to 
        target strategic areas of policy analysis interest, including 
        issues related to the energy-water nexus in the Quadrennial 
        Energy Review (QER). Just last week, at one of our scheduled 
        public listening sessions on the QER, we focused specifically 
        on energy and water. The two panels, with experts from state 
        and local government, academia, the private sector and civil 
        society, underscored the nature of this nexus--not least given 
        the extreme drought facing the West, and their collective 
        expectations that such extreme events would become more 
        frequent as the climate changes. Both a background paper 
        prepared for that meeting, as well as the full transcript of 
        the session itself are available on the DOE website at: http://
        www.energy.gov/epsa/events/qer-public-meeting-san-francisco-
        water-energy-nexus.
  <bullet> DOE has participated in various national and international 
        dialogs on this topic as part of focused and broader engagement 
        efforts.
                          water-energy report
    One of the major WETT accomplishments has been the preparation and 
June 18, 2014 release of the report entitled The Water-Energy Nexus: 
Challenges and Opportunities.
    Overarching conclusions of the report include:

  <bullet> Energy and water systems are highly interdependent;
  <bullet> We cannot assume the future is like the past in terms of 
        climate, technology, and the evolving decision landscape;
  <bullet> Water scarcity, variability, and uncertainty are becoming 
        more prominent, potentially leading to vulnerabilities of the 
        U.S. energy system;
  <bullet> We need a more integrated approach to address the challenges 
        and opportunities of the water-energy nexus;
  <bullet> DOE has strong expertise in technology, modeling, analysis, 
        and data that can contribute to understanding the issues and 
        solutions across the entire nexus; and
  <bullet> Collaboration with DOE's many current and potential partners 
        is crucial.

    The report itself identifies six strategic pillars that inform 
approaches for addressing challenges across the water-energy nexus:

          1. Optimize the freshwater efficiency of energy production, 
        electricity generation, and end use systems.
          2. Optimize the energy efficiency of water management, 
        treatment, distribution, and end use systems.
          3. Enhance the reliability and resilience of energy and water 
        systems.
          4. Increase safe and productive use of nontraditional water 
        sources.
          5. Promote responsible energy operations with respect to 
        water quality, ecosystem, and seismic impacts.
          6. Exploit productive synergies among water and energy 
        systems.

    In context of these pillars, and in the area of DMA, DOE seeks to 
pursue advances for robust projections, scenarios, analyses at 
decision-relevant scales; characterization of uncertainty and risks; 
modeling and analysis of extreme events with insights into potential 
system shocks; interoperable DMA platforms, including a layered, 
integrated data system; and improvements in evaluation of models with 
observations, as well as more effective and direct use of observations 
to improve projections. Data and information needs span a wide range of 
spatial and temporal scales, requiring improved capacity for 
``telescopic resolution.''
    Technology R&D in areas such as the recovery of dissipated energy, 
advances in cooling systems, alternatives to freshwater in 
unconventional oil and gas, desalination, net-zero wastewater 
treatment, and efficient equipment and appliances can increase the 
options available to meet challenges. More generally, improvements in 
sensors, data collection, analysis, and reporting could yield benefits 
to multiple decision-makers. Addressing energy and water systems as an 
integrated whole can stimulate additional innovations.
    While the report seeks to outline some of the opportunities and 
risks in the energy-water system, it is clearly only a first step in a 
process that will need to engage many others outside the Department. It 
is thus intended as an opening to a much larger collaboration that will 
bring together many partners in the energy-water arena. Federal 
agencies have a role in the energy-water nexus, as do regional, state, 
tribal, and local authorities. Importantly, a diverse array of non-
governmental organizations, including private companies, national non-
governmental organizations (NGOs), foreign governments, universities, 
and municipal facilities must all be involved if we are to make 
adequate progress on these issues. It is in the interest of private 
firms to improve efficiency and continue to deliver their energy 
products reliably. Local and State governments that have primary 
regulatory jurisdiction in many of these areas will need and want to 
participate in prioritization of issues and seeking flexible solutions. 
If activities related to the energy-water nexus receive appropriations 
in future budgets, these activities could reside at multiple federal 
agencies that have authorities to undertake such activities, including 
DOE. We look forward to your reactions to this work.
                                 s.1971
    Before I conclude, let me comment briefly on S.1971, the Nexus of 
Energy and Water for Sustainability Act of 2014. While the 
Administration is still reviewing this bill and does not have a formal 
position at this time, we appreciate the Committee's efforts to address 
this issue. I can say that broadly we are in agreement that a close 
level of communication and coordination among federal agencies is 
important to advancing our work on this increasingly vulnerable 
intersection of our energy and water systems. Moving forward, we would 
like to continue working with the Committee on preliminary concerns 
regarding the details of the collaborative structure and reporting 
provisions on issues related to the nexus of energy and water.
                               conclusion
    DOE has undertaken an ambitious effort to respond to the challenge 
of the energy-water nexus. Strategic partnerships to advance and 
accelerate progress toward a robust and resilient energy and water 
system at the nexus of energy and water are important.
    Ultimately, the Energy Department's longstanding leadership in 
modeling and technology research and development makes it well suited 
to contribute to the need for data-driven and empirical solutions to 
address energy system vulnerabilities arising from the coupled energy-
water system. Forming the WETT, and the various accomplishments of our 
work to date, including our newly released report, are important.
    Thank you and I look forward to any questions you may have.
                               references
          DOE Office of Science. ``Community Modeling and Long-Term 
        Predictions of the Integrated Water Cycle: Report from the 
        September 2012 Workshop''. September 2012. http://
        climatemodeling.science.energy.gov/f/2013/
        Water_Cycle_Report_High_Res.pdf

          Government Accountability Office (GAO). ``Energy-Water Nexus: 
        Information on the Quantity, Quality, and Management of Water 
        Produced During Oil and Gas Production''. January 2012. http://
        www.gao.gov/assets/590/587522.pdf

          Skaggs, Hibbard, Janetos, Rice. ``Climate and Energy-Water-
        Land System Interactions'' PNNL-21185. March 2012. http://
        www.pnnl.gov/main/publications/external/technical_reports/PNNL-
        21185.pdf

          U.S. Department of Energy. ``The Water-Energy Nexus: 
        Challenges and Opportunities''. June 2014. http://
        www.energy.gov/sites/prod/files/2014/06/f16/
        Water%20Energy%20Nexus%20Report%20June%202014.pdf

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

    Senator Baldwin. Thank you, Dr. Pershing.
    Next we'll hear from Dr. Iseman. Mr. Iseman.

 STATEMENT OF TOM ISEMAN, DEPUTY ASSISTANT SECRETARY FOR WATER 
            AND SCIENCE, DEPARTMENT OF THE INTERIOR

    Mr. Iseman. Mr. Iseman.
    Senator Baldwin. Sorry.
    Mr. Iseman. I noticed I was between two Doctors.
    [Laughter.]
    Mr. Iseman. Thank you, Senator Baldwin and Senator 
Murkowski. I'm Tom Iseman, Deputy Assistant Secretary for Water 
and Science at the Department of the Interior. Thanks for the 
opportunity to provide the views of the Department on S. 1971, 
the Nexus of Energy and Water for Sustainability Act of 2014.
    I would also like to thank the committee for the tremendous 
outreach to the Department as this legislation was developed. 
We appreciate the committee's leadership on the energy/water 
nexus and the opportunity to work with you and your staff to 
address these issues.
    In light of the Department of the Energy's newly released 
report the Administration would like to conduct additional 
review of the bill. The Department is very supportive of the 
committee's efforts and would like to work with you as this 
bill moves through the legislative process.
    The Department has a number of existing programs in place 
that are consistent with the goals of S. 1971 which I will 
summarize today, specifically as they relate to the Bureau of 
Reclamation and the U.S. Geological Survey.
    The USGS provides impartial scientific information on the 
health of our ecosystems and environment, the water and energy 
resources we rely on and the impacts of climate and land use 
change.
    Reclamation is the largest wholesaler of water and the 
second largest producer of hydropower in the United States.
    Interior has unique capabilities to understand and address 
the energy/water nexus.
    I want to provide several examples that illustrate how 
these agencies are conducting research and implementing 
strategies that address the important interconnections between 
energy and water.
    Understanding the value of interagency coordination, 
Interior has partnered with the Department of Energy and the 
Department of the Army through a 2010 memorandum of 
understanding to collaboratively address a host of energy/water 
nexus issues related to hydropower. By coordinating efforts 
these agencies have completed a number of projects that promote 
sustainable hydropower development.
    For example, as a result of the MOU Reclamation has 
completed hydropower resource assessments, updated policies to 
encourage non-Federal development of hydropower and partnered 
with DOE to test the impacts of a hydrokinetic device on open 
channel hydraulics.
    Earlier this month the Department announced that 
Reclamation will make a $17.8 million investment in WaterSMART 
and water and energy efficiency grants available to 36 new and 
ongoing projects in the Western United States for activities 
such as conserving and using water more efficiently, increasing 
the use of renewable energy, improving energy efficiency and 
carrying out activities to address climate related impacts on 
water.
    The USGS has been working with the Energy Information 
Administration since 2010 to improve estimates of water 
withdrawals and consumptive use associated with cooling water 
at thermoelectric generating plants across the Nation. Cooling 
water for such plants is the largest sector of water 
withdrawals in the United States. USGS with the assistance of 
the EIA developed a model that incorporates the heat budget of 
the thermoelectric generating plants that rely on water for 
cooling.
    The model can be used both to estimate current and 
historical water use and to forecast future water use with 
different plant configurations and cooling water technologies.
    Ultimately this information on thermoelectric water use can 
be incorporated into the USGS water census. As the energy 
sector is a primary user of water increased availability of 
water use information related to energy will be an important 
part of the water census.
    Water availability, severe drought and long term climate 
trends have always posed a significant threat to energy 
development and electric generation. This is one of the broad 
systemic risks at the core of the energy/water nexus and a 
place where Interior would like to focus going forward.
    In conclusion the Department shares the committee's goals 
to promote coordination between Federal agencies as it relates 
to the energy/water nexus. We appreciate the leadership of this 
committee in engaging Federal agencies to address these issues.
    I would be pleased to answer questions at the appropriate 
time.
    [The prepared statement of Mr. Iseman follows:]
Prepared Statement of Tom Iseman, Deputy Assistant Secretary for Water 
                and Science, Department of the Interior
    Chairman Schatz, Ranking Member Lee and members of the 
Subcommittee, I am Tom Iseman, Deputy Assistant Secretary for Water and 
Science at the Department of the Interior (Department). Thank you for 
the opportunity to testify on S. 1971, Nexus of Energy and Water for 
Sustainability Act of 2014. The Administration has not completed its 
review of S. 1971 in conjunction with the report issued by the 
Department of Energy last week, entitled The Energy-Water Nexus: 
Challenges and Opportunities (U.S. Department of Energy 2014). The bill 
would create a Committee or Subcommittee on Energy-Water Nexus for 
Sustainability under the National Science and Technology Council 
(NSTC), co-chaired by the Secretary of Energy and Secretary of the 
Interior. The Department has a number of existing programs that address 
many of these energy-water nexus issues, some of which are summarized 
below.
    Founded in 1879, the USGS is the Nation's largest water, earth, and 
biological science and civilian mapping agency. The USGS collects, 
monitors, analyzes, and provides scientific understanding about natural 
resource conditions, issues, and problems. The USGS provides impartial 
scientific information on the health of our ecosystems and environment, 
the water and energy resources we rely on, and the impacts of climate 
and land-use change. With a diversity of scientific expertise, the USGS 
carries out large-scale, multi-disciplinary investigations and provides 
scientific information to resource managers, planners, and other 
customers.
    Reclamation owns and operates water projects that promote and 
sustain economic development within the 17 western States. The mission 
of Reclamation is to manage, develop, and protect water and related 
resources in an environmentally and economically sound manner in the 
interest of the American public. Since it was established in 1902, 
Reclamation has constructed more than 600 dams and reservoirs including 
Hoover Dam on the Colorado River and Grand Coulee on the Columbia 
River. Reclamation is the largest wholesaler of water in the country, 
delivering water to more than 31 million people, and providing one out 
of five western farmers with irrigation water for 10 million acres of 
farmland across the United States. Reclamation is also the second 
largest producer of hydroelectric power in the United States, and 
provides significant amounts of renewable energy to customers 
throughout the West.
          existing programs at the department of the interior
    The Department recognizes the importance of the energy-water nexus 
and supports a closer level of communication and coordination between 
the Department of the Interior, Department of Energy and the broader 
federal community. The Department of the Interior appreciates the 
Committee's leadership on the energy-water nexus issue. Energy and 
water issues intersect across a range of Interior activities, including 
hydropower generation, energy development, electricity generation, and 
water treatment, distribution, and conservation. Interior has a variety 
of programs that address the energy-water nexus, including USGS 
monitoring systems and research programs (including the National Water 
Census), Reclamation Basin Studies, and WaterSMART Grants. 
Understanding the value of interagency coordination, Interior has 
partnered with the Department of Energy and the Department of the Army 
(working with the U.S. Army Corps of Engineers) through a 2010 
Memorandum of Understanding (MOU) to collaboratively address a host of 
energy-water nexus issues related to hydropower. By coordinating 
efforts, the signatory agencies have completed a number of projects 
that promote sustainable hydropower development, including hydropower 
resource assessments, unit-dispatch optimization systems, climate 
change studies, integrated basin-scale opportunity assessments, and 
funding opportunities to demonstrate new small hydropower technologies.
    The Department is committed to integrating energy and water 
policies to promote the sustainable use of all resources, including 
incorporating water conservation criteria and the water/energy nexus 
into the Department's planning efforts. On June 9, 2014, the Department 
announced that Reclamation will make $17.8 million in WaterSMART Water 
and Energy Efficiency Grants available to 36 new and ongoing projects 
in the Western United States for activities such as conserving and 
using water more efficiently, increasing the use of renewable energy, 
improving energy efficiency, encouraging water markets, and carrying 
out activities to address climate-related impacts on water. Reclamation 
also announced that it will make $1.8 million available for 
comprehensive water basin studies conducted jointly with state and 
local partners in the Upper Red River Basin in Oklahoma, Upper 
Deschutes River Basin in Oregon, and Missouri River Headwaters Basin in 
Montana. These announcements support the President's Climate Action 
Plan by providing tools for states and water users to create water 
supply resilience to meet future water and energy demands in the face 
of a changing climate.
    Water and Energy Efficiency Grants and Basin Studies are part of 
the Department's WaterSMART Program. WaterSMART Grants provide cost-
shared funding to States, tribes, and other entities with water or 
power delivery authority for water efficiency improvements, with 
additional consideration given to proposals that include energy savings 
as a part of planned water efficiency improvements. Water management 
improvements that incorporate renewable energy sources are also 
prioritized for WaterSMART Grant funding. These grants directly address 
the energy-water nexus and provide a concrete means of implementing on-
the-ground solutions to energy-water issues. The FY 2014 Water and 
Energy Efficiency Grant projects are expected to conserve more than 
67,000 acre-feet of water annually and 22.9 million kilowatt-hours of 
electricity--enough water for more than 250,000 people and enough 
electricity for more than 2,000 households. Basin Studies are 
collaborative studies, cost-shared with non-Federal partners, which 
analyze how climate change may affect water supply, demand and 
operations in the future and identify adaptation strategies to address 
imbalances in water supply and demand.
    In addition to long-standing USGS efforts in water supply and 
availability and in energy resource assessments and research, which 
provide an essential foundation for understanding issues related to the 
energy-water nexus, the USGS participates in a number of interagency 
efforts. The USGS has been working with the Energy Information 
Administration (EIA) since 2010 to improve estimates of water 
withdrawals\1\ and consumptive use associated with cooling water at 
thermoelectric generating plants across the Nation. Cooling water for 
such plants is the largest sector of water withdrawals in the United 
States, at 49% of all water withdrawals nationwide, according to USGS 
Circular 1344, Estimated Use of Water in the United States in 2005. A 
recent USGS report, Methods for Estimating Water Consumption for 
Thermoelectric Power Plants in the United States (Scientific 
Investigations Report 2013-5188), documents the model that the USGS 
developed with the assistance of the EIA for estimating electric 
generating plant water withdrawals and consumptive use, which are 
currently not consistently reported. This ground-breaking model, which 
incorporates the heat budget of each of the approximately 1,300 
thermoelectric generating plants that rely on water for cooling, can be 
used both to estimate current and historical water use and to forecast 
future water use with different plant configurations and cooling water 
technologies.
---------------------------------------------------------------------------
    \1\ Withdrawals are defined as water removed from the ground or 
diverted from a surface-water source for use.
---------------------------------------------------------------------------
    In addition to the efforts above, the FY 2015 President's Budget 
requests an additional $2 million for the USGS to provide water use 
grants to States that will increase availability and quality of water 
use data--including data related to water used for energy. These grants 
would provide financial resources, through State water resources 
agencies, to improve the availability and quality of water use data 
that they collect and would integrate those data with the USGS Water 
Census. Funding provided to States through these grants would be 
targeted at improvements to water use data collection and integration 
that will be of the greatest benefit to a national assessment of water 
availability and use. As the energy sector is a primary user of water, 
increased availability of water use information related to energy will 
be an important part of this effort.
    In mid-April 2014, the USGS released an expanded and updated 
version of the USGS oil, gas, and geothermal Produced Waters Database 
and Map Viewer; the revised database contains nearly 100,000 new 
samples from conventional and unconventional well types, including 
geothermal. The availability of more samples and more types of analyses 
will help farmers determine the quality of local produced water 
available for possible remediation and reuse, will enable local and 
national resource managers to track the composition of trace elements, 
and will help industry plan for waste-water injection and recycling.
    The Powder River Basin in northern Wyoming and southern Montana has 
experienced a rapid expansion in the development of coalbed natural 
gas. About 90 billion liters of water were produced annually in the 
Wyoming portion of the Basin between 2002 and 2011 as part of the 
extraction process. The produced waters are moderately saline and have 
high proportions of sodium relative to calcium and magnesium, thus 
rendering the waters unsuitable for irrigation without treatment. USGS 
studies have examined the environmental impacts of different disposal 
options. Results indicated that infiltration impoundments had the 
potential to contaminate underlying fresh groundwater supplies, but 
that with specific treatment the produced waters could be used in 
subsurface drip irrigation operations that minimized potential for 
groundwater contamination and provided beneficial use of the waters to 
enhance agricultural production in this semiarid region.
    Other Departmental programs and activities relate directly to the 
energy-water nexus, including hydropower development, water treatment 
and desalination, pumping and water delivery, BLM energy permitting, 
and USGS research on energy resources and induced seismicity. We are 
happy to provide the Committee with additional information on these 
programs as needed.
   s. 1971, nexus of energy and water for sustainability act of 2014
    Section 3 of S. 1971 requires the Director of the Office of Science 
and Technology Policy to establish either a Committee or Subcommittee 
on Energy-Water Nexus for Sustainability under the NSTC, co-chaired by 
the Secretary of Energy and Secretary of the Interior. The Committee or 
Subcommittee is directed to: (1) serve as a forum for developing common 
federal goals and plans on energy-water nexus issues; (2) promote 
coordination of the related activities of several federal departments 
and agencies identified in the bill; (3) coordinate and develop 
capabilities for data collection, categorization, and dissemination of 
data from and to other federal departments and agencies; and (4) engage 
in information exchange between federal departments and agencies.
    Section 4 of S. 1971 requires the Director of the Office of 
Management and Budget to submit to Congress a report that includes an 
interagency budget crosscut that: (1) displays the budget proposed for 
the upcoming fiscal year, including any interagency or intra-agency 
transfer, for each of the federal agencies that carry out energy-water 
nexus projects and (2) identifies all federal and state expenditures 
since 2011 on energy-water nexus projects. The report to Congress would 
also provide a detailed accounting of all funds received and obligated 
by all Federal and State agencies with energy-water implementation 
responsibilities during the previous fiscal year and list all energy-
water nexus projects to be undertaken in the upcoming fiscal year, with 
the federal portion of funds for those projects.
    The Department appreciates the Committee's leadership and the 
opportunity to strengthen capabilities to address the energy-water 
nexus. Given the breadth and many facets of this issue, we support 
close collaboration with the DOE and other Federal agencies. Moving 
forward, we would like to continue working with the Committee on 
preliminary concerns regarding the details of the collaborative 
structure and reporting provisions on issues related to the nexus of 
energy and water. The Department supports interagency collaboration and 
information sharing to support sound decision-making, leverage 
resources, and reduce duplication. But, the Administration believes 
this can be done through more effective and efficient collaboration and 
program management, rather than an unduly and potentially ineffective 
reporting requirement.
    If enacted, it is the Department's view that the committee or 
subcommittee created under S. 1971 should focus its attention on key 
vulnerabilities where there is an appropriate federal role and 
capability to have a positive impact. It is the Department's view that 
that focus should be on data gaps associated with water use and 
availability.
    Water availability, severe drought, and long-term climate trends 
have always posed a significant risk to energy development and electric 
generation. This is one of the broad, systemic risks at the core of the 
energy-water nexus. Decreased water availability, prolonged drought, 
and more pronounced climate trends could increase that risk and require 
the use of accelerated adaptation strategies.
    The Department supports the type of coordination and data exchange 
encouraged under S. 1971 and is already undertaking a number of steps 
to do so as discussed in the testimony above. Such efforts could help 
close existing gaps, increasing our understanding of water supply 
availability to benefit water and energy decision makers.
    If enacted, S. 1971 may present challenges to the Department. The 
Department would need to evaluate whether the commitments and reporting 
requirements in the bill may require additional resources to carry them 
out. Additionally, while S. 1971 allows for the coordination of federal 
activities, the Department would like to stress the importance of 
providing the scientific community with autonomy to design and execute 
studies. Finally, States play the key role in allocating and 
administering water, and they must be a partner in energy-water 
efforts. S. 1971 does not address the important relationships with 
states and the private sector, where significant work on energy-water 
nexus projects is accomplished. Finally, as drafted, it is unclear to 
the Department what qualifies as an ``energy-water nexus project'' 
under S. 1971.
                               conclusion
    In conclusion, the Department shares the Committee's goals to 
promote coordination between Federal agencies as it relates to the 
energy-water nexus. We appreciate the leadership of this Committee in 
engaging Federal agencies. The Department has numerous programs in 
place that encourage coordination not only within the Federal 
Government, but as public-private partnerships. The Federal Government 
has a role in providing leadership and tools to address the challenges 
of imbalance between supply and demand. Sustainable water supplies and 
energy use are important parts of a stable economic base, employment 
continuity, and smart growth.
    I would be pleased to answer any questions the Subcommittee may 
have.

    Senator Baldwin. Thank you, Mr. Iseman.
    Dr. Carter.

  STATEMENT OF NICOLE T. CARTER, PH.D., SPECIALIST IN NATURAL 
        RESOURCES POLICY, CONGRESSIONAL RESEARCH SERVICE

    Ms. Carter. Thank you, Senator Baldwin and Senator 
Murkowski. My name is Nicole Carter. I'm a specialist in 
natural resources policy at the Congressional Research Service. 
Thank you for inviting CRS to testify on S. 1971, the NEWS Act.
    In serving the U.S. Congress in a non partisan and 
objective basis, CRS takes no position on this legislation. We 
have been asked to provide background and analysis.
    S. 1971 would require the Director of the Office of Science 
and Technology Policy to establish within the National Science 
and Technology Council a committee or subcommittee on energy/
water nexus for sustainability. Here and after referred to as 
the NEWS Committee.
    This cabinet level council and its committees are the 
principle means for the executive branch to coordinate science 
and technology policy across the Federal Government. The NEWS 
Committee would be co-chaired by the Secretary of Energy and 
the Secretary of the Interior. It would be tasked with 
coordinating Federal investments in science and technology to 
address energy/water nexus issues. This effort would cover at 
least 13 Federal departments, agencies and offices.
    S. 1971 identifies duties of the NEWS Committee.
    Providing a forum for developing Federal energy/water nexus 
goals and plans.
    Identifying opportunities to advance nexus science and 
technologies including through public/private partnerships.
    S. 1971 also would require annual energy/water cross cut 
budget of Federal and State funding.
    Delivering water to communities, industries and agriculture 
and treating municipal waters and waste waters consumes energy.
    Similarly population distribution, electricity demand and 
domestic energy development influences how much and where the 
energy sector relies on water to cool power plants, to generate 
hydropower and to produce conventional and unconventional 
fuels.
    In a 2013 review of global corporations 45 percent of 
energy companies indicated that water stress or scarcity 
represented a direct risk to their business operations. While 
many Federal entities collect data and support research 
relevant to the energy/water nexus and in the case of the 
Department of Energy there's a recently released departmental 
strategy.
    Actions to coordinate and strategically plan Federal 
energy/water nexus efforts have been limited. A few Federal 
entities have attempted to have a collaboration, like we just 
heard from Tom, and while some of these have produced results 
the impacts of others remain to be seen. For example, 
significant data gaps persist. The water use data for oil 
extraction and refining that are commonly cited are decades 
old, poorly documented, lack verification and represent limited 
samples. Such data gaps persist in part because the energy 
sector is largely private, dispersed and quickly evolving.
    Ensuring data consistency, accuracy and currency can 
require investment of effort and resources. S. 1971 would task 
the NEWS Committee to engage in information exchange as well as 
promote data collection and dissemination.
    Regarding the impact of S. 1971.
    The bill would provide the executive branch with 
Congressional direction to coordinate Federal energy/water 
science and technology investments and provide both the forum 
and budget information to strategically ameliorate energy/water 
issues through targeted results from Federal research and 
science programs across the Federal Government.
    The annual cross cut budget requirement in S. 1971 may pose 
some implementation challenges.
    First, a key term for the cross cut, the energy/water nexus 
projects is not defined.
    Second, the requirement to include State government 
expenditures from all 50 states and expenditures back to FY2011 
may be difficult to assemble.
    Except for the cross cut budget, S. 1971 requires no 
specific deliverable and limits its direction to the NEWS 
Committee on how to accomplish its duties and measure its 
success. That is, the legislation provides the NEWS Committee 
with implementation flexibility.
    While implementing S. 1971 would require an investment of 
resources and staff it also has the potential to produce 
benefits.
    It may assist in focusing Federal research on priority 
nexus challenges. Thereby fostering the technology, science and 
data to mitigate energy/water nexus related business risk and 
to more reliably deliver affordable energy and water.
    Thank you. I'm happy to answer any questions.
    [The prepared statement of Ms. Carter follows:]
 Prepared Statement of Nicole T. Carter, Ph.D., Specialist in Natural 
            Resources Policy, Congressional Research Service
    Chairman Schatz, Ranking Member Lee, Members of the subcommittee, 
my name is Nicole Carter. I am a Specialist in Natural Resources Policy 
at the Congressional Research Service (CRS). Thank you for inviting CRS 
to testify on S. 1971, The Nexus of Energy and Water for Sustainability 
Act (the NEWS Act). In serving the U.S. Congress on a non-partisan and 
objective basis, CRS takes no position on this legislation, but has 
been asked by the Subcommittee to provide background and analysis of 
the legislation and its context. CRS remains available to assist the 
Subcommittee in its consideration of this legislation, related issues, 
and potential concerns among affected stakeholders.
                       description of legislation
    S. 1971 would require the Director of the Office of Science and 
Technology Policy to establish a Committee or Subcommittee on Energy-
Water Nexus for Sustainability (hereinafter referred to as the NEWS 
Committee). The NEWS Committee would be within the National Science and 
Technology Council (NSTC). The NSTC was established by Executive Order 
12882 on November 23, 1993. This Cabinet-level council is the principal 
means within the executive branch to coordinate science and technology 
policy across the federal research and development enterprise. A 
primary objective of the NSTC is the establishment of clear national 
goals for federal science and technology investments; the NSTC also 
prepares research and development strategies coordinated across federal 
agencies to form investment packages aimed at accomplishing these 
goals.
    The NEWS Committee would coordinate federal energy-water nexus 
efforts, which the bill defines as the link between (1) energy 
efficiency and the water quantity needed to produce fuels and energy 
and (2) the energy needed for transporting and treating water. It would 
be co-chaired by the Secretary of Energy and the Secretary of the 
Interior and include at minimum 11 other identified federal 
departments, agencies, or offices. The duties of the NEWS Committee 
would include the following:

  <bullet> providing a forum for development of federal energy-water 
        nexus goals and plans,
  <bullet> promoting coordination of energy-water nexus activities 
        across federal agencies,
  <bullet> supporting federal energy-water nexus data capabilities and 
        dissemination, and
  <bullet> identifying opportunities to advance energy-water nexus 
        science and technologies, including through public-private 
        partnerships and innovative financing.

    S. 1971 also would require an annual energy-water crosscut budget 
of federal and state funding of energy and water nexus projects to be 
transmitted within 30 days of the President's budget submission to this 
Committee and two House Committees. Currently, few activities are 
identified as energy-water nexus related in federal budget and 
appropriations documents, although we know that numerous federal 
programs, activities, and grants support energy-water nexus research 
and data, often as part of their broader missions.
                   federal energy-water nexus efforts
    A 2012 Government Accountability Office (GAO) report provides some 
context for this legislation. It described how the lack of 
comprehensive energy-water data and research hampers effective policy 
choices; the report stated: ``Congress and federal agencies may be 
making decisions that affect energy and water supplies without fully 
understanding the impact of these decisions.''\1\ In a 2013 review of 
global corporations' disclosures, 45% of energy companies indicated 
that water stress or scarcity represented a direct risk to their 
business operations.\2\
---------------------------------------------------------------------------
    \1\ U.S. Government Accountability Office (GAO), Energy-Water 
Nexus: Coordinated Federal Approach Needed to Better Manage Energy and 
Water Tradeoffs, GAO-12-880, September 2012, http://www.gao.gov/assets/
650/648306.pdf.
    \2\ Carbon Disclosure Project, Moving beyond business as usual: A 
need for a step change in water risk management, CDP Global Water 
Report 2013, 2013.
---------------------------------------------------------------------------
    Domestic energy development, electricity demand, and population 
distribution affect how much and where the energy sector relies on 
water to cool power plants, to produce conventional and unconventional 
fuels, and generate hydropower. Similarly, delivering water to 
communities, industries, and agriculture and treating municipal and 
industrial wastewaters consumes energy. While many federal entities 
collect energy-water nexus relevant data, support related research, and 
in the case of the Department of Energy have a departmental strategy, 
the coordination and strategic planning of federal energy-water nexus 
efforts have been limited and of limited impact in guiding research and 
improving investments and policy choices. Some agencies have taken 
steps to improve energy-water nexus data collection and dissemination 
of research results and attempted some targeted collaboration. However, 
the results and impact of these efforts to date remain to be seen. For 
example, the Multi-Agency Collaboration on Unconventional Oil and Gas 
Resources consisting of U.S. Department of Energy (DOE), the U.S. 
Environmental Protection Agency (EPA), and the U.S. Geological Survey 
(USGS),targeted release of a multi-year research plan by January 2013; 
the plan has yet to be made public. Another example of mixed results is 
the availability of reliable data for informing policies and public 
debates. Significantly more data and analysis are available today than 
five years ago on the water use associated with different 
thermoelectric power generation technologies and fuels; however, 
significant data gaps remain regarding water use associated with fuels, 
especially on a water use per unit of energy produced basis. For 
example, the water use data for oil extraction and refining that are 
often cited are decades old, poorly documented, lack verification, or 
represent limited samples. Energy-water data gaps persist in part 
because improving available data is challenging: much of the energy 
sector is private, dispersed, and quickly evolving; and ensuring data 
consistency, accuracy, and currency is challenging and can require an 
investment of resources and effort.
    S. 1971 would assign the NEWS Committee to engage in information 
exchange, collaboration, and promote data collection and dissemination. 
The legislation also calls for the NEWS Committee to identify 
opportunities for public-private partnerships and collaborations. 
Together these efforts may stimulate innovation in related science and 
technologies and assist in addressing in the long-run some of these 
persistent data and knowledge gaps that remain for the United States 
and internationally.
    As previously noted, S.1971 would require an annual crosscut budget 
of nexus activities. The U.S. Department of Energy's activities can 
illustrate how crosscuts may provide federal funding information that 
otherwise would not be available. The Energy Policy Act of 2005 directs 
the Secretary of Energy to carry out a program to address the energy-
water nexus and assess the effectiveness of existing programs at DOE 
and other federal agencies. To date, DOE has neither received nor 
requested any funding specifically designated to carry out this 
provision; however, the department has been active in various energy-
water research efforts. A crosscut budget would presumably document any 
federal spending on energy-water related activities such as this, even 
if they do not appear as appropriations line-items. The energy-water 
crosscut budget could be of use to Congress, the executive branch 
including the NEWS Committee, and non-federal stakeholders.
                         impact of legislation
    Regarding the impact of S. 1971, the bill would provide 
congressional direction to the Administration on how to accomplish 
federal energy-water nexus coordination, and provide the forum and 
budget information for development of integrated multi-agency research 
plans.
    The crosscut budget requirement in S. 1971 may pose some 
implementation challenges. First, while S. 1971 defines ``energy-water 
nexus,'' the term ``energy-water nexus project'' is not defined. In 
particular, the bill does not clarify whether this term is limited to 
research, development, and demonstration or includes infrastructure and 
other larger-scale investments. Second, the requirement to include 
state government expenditures from all 50 states and expenditure data 
back to FY2011 may be difficult to accomplish. It is unclear if state 
governments would have incentives to cooperate, and if the aggregated 
data state data would be sufficiently consistent to be useful to the 
crosscut budget effort. In the face of challenges like these, other 
existing and proposed federal crosscut budget provisions have utilized 
joint federal-state institutions or narrowly limited the nature of 
state-level information to be compiled.\3\ For crosscut budgets to be 
most useful they need to be accurate and targeted at the most pertinent 
information for decision-making in order to reduce unnecessary effort 
and cost associated with their compilation.
---------------------------------------------------------------------------
    \3\ See, for example, crosscut budget provisions for Great Lakes 
restoration (P.L. 113-76, Division E, Title VII, Section 738; 128 Stat. 
238); and proposed crosscut budget provisions in H.R. 2773 (Great Lakes 
Ecological and Economic Protection Act of 2013, as introduced) and H.R. 
2954 (Title X of the proposed Public Access and Lands Improvement Act, 
113th Congress, Chesapeake Bay Accountability and Recovery Act, House-
passed).
---------------------------------------------------------------------------
    Except for the annual crosscut budget, S. 1971 requires no specific 
deliverable and provides little direction to the Administration on how 
the NEWS Committee should accomplish its duties or measure its success. 
S. 1971 does provide the OSTP Director discretion to terminate the NEWS 
Committee after 10 years based on a determination of its relevance and 
effectiveness. The flexibility S. 1971 provides to the NEWS Committee 
may allow it to anticipate and respond to developments affecting the 
energy-water nexus as they arise (which can be rapid, as illustrated by 
the quick rise of unconventional oil and gas development since the late 
2000s), to be innovative in how it coordinates, and how participating 
federal agencies engage nonfederal and private entities.
    While S. 1971's implementation would likely require an investment 
of resources and staff (e.g., to accomplish the coordination, prepare 
plans, and assemble data and crosscut budgets), it also has the 
potential to produce benefits. It may result in research plans that 
reduce duplicative research efforts, knowledge to help avoid unintended 
policy outcomes, and technologies to more reliably deliver affordable 
energy and water, efficiently use and conserve natural resources, and 
mitigate energy-water nexus related business risks.
    This concludes my statement. Thank you. I am happy to answer any 
questions you may have at the appropriate time.

    Senator Baldwin. Thank you, Dr. Carter.
    Next we'll call on Ms. Ray.

STATEMENT OF ANDA RAY, VICE PRESIDENT FOR ENVIRONMENT AND CHIEF 
   SUSTAINABILITY OFFICER, ELECTRIC POWER RESEARCH INSTITUTE

    Ms. Ray. Thank you, Ranking Member Murkowski, Senator 
Baldwin and all the members of the committee. I am Anda Ray. 
I'm the Vice President and Chief Sustainability Officer for the 
Electric Power Research Institute, often referred to as EPRI. 
We really thank you for letting us testify here today.
    For over 40 years EPRI has conducted research and 
development relating to the generation, delivery and use of 
electricity to benefit the public. EPRI is a non-profit, 
independent organization which brings together scientists and 
engineers, along with experts in academia and industry to 
address the challenges associated with electricity, be it 
reliability, environmental issues, safety issues, efficiency, 
affordability.
    EPRI's members represent about 90 percent of all of the 
electricity generated in the United States. We have about 700 
staff and an annual budget of about $400 million.
    So one of the most important areas of research for EPRI is 
water. Water availability is clearly and we've all identified 
this, a critical issue for the power sector. Many of the power 
plants and the thermoelectric plants were designed to take 
advantage of the plentiful water resources.
    Water is used for cooling in all types of thermoelectric 
plants, be it nuclear, oil, coal, gas, biofuels and even solar 
thermal. It's used in those same plants as well for fuel 
processing, ash handling, scrubbing of emissions and of course, 
the potable water requirements for the work force.
    It's important to note that while the electric sector is 
responsible for approximately 40 percent of the fresh water 
withdrawal in the United States, it represents about 5 percent 
of the actual consumption because most of the water that is 
used for cooling is actually returned to the source.
    Now while water is critical to the electric power industry, 
we've all identified that the reverse is true as well. Without 
electricity most Americans would not have access to clean water 
or effective waste water treatment. EPRI's research on 
electricity needed to transport and treat water has focused 
mainly on the characterization and conservation of electricity 
used for those purposes.
    Our analysis shows that the amount of electricity used for 
drinking water which is primarily pumping and for waste water 
for treatment which is primarily for aeration to remove the 
organic matter and nutrients, accounts for approximately 2 
percent all of the Nation's electric usage. With the increase 
in the desalination process, electricity is going to increase 
proportionately as well.
    So it's clear that the economic viability of the Nation's 
communities is very dependent on getting both reasonably priced 
fresh water and having affordable electricity.
    Now since the 1970s EPRI has been using its collaborative 
research model to focus on 3 primary areas of the energy/water 
nexus.
    The first is the cooling of thermal power plants.
    The second is on water availability.
    The third is reducing energy used in the transportation and 
treatment of water.
    All of these are encompassed in the proposed NEWS Act.
    If I may I'd like to give you two examples of research that 
address some of the issues associated with the energy/water 
nexus.
    Starting with EPRI's water analytics research.
    This research includes the development of methodologies and 
tools to help us better understand and sustainably manage our 
water resources. This tool compares regional watershed uses 
from all industry sectors with that same region's watershed 
availability of water, both ground water and surface water. You 
can see that comparing those, what's taken out and what goes 
in, is very obviously a regional specific type of analysis.
    The second example is on EPRI's collaborative research for 
thermoelectric cooling. EPRI and along with the National 
Science Foundation have joined to launch a joint--have joined 
together to launch a research program to develop advanced 
cooling technologies. Some of these technologies also show 
promise for application in other industries as well such as the 
data management and refrigeration industry.
    So EPRI and the National Science, excuse me, National 
Science Foundation have funded approximately $6 million over a 
period of 3 years. We've identified in our funding 10 different 
projects.
    So the NEWS Act would also serve to coordinate and develop 
capabilities associated with the dissemination and collection 
of data with other Federal agencies. We want to encourage you 
that we think it's important as well to encourage the public/
private partnerships and synergies with sharing with that data. 
EPRI already works with Federal agencies to exchange 
information in many ways. For example EPRI serves as a member 
of the Federal Advisory Committee on Water and Information 
providing data to both the EPA, Department of Interior and 
others.
    So in summary, I just want to mention that over 4 decades 
of research EPRI has identified very similar gaps as noted in 
the NEWS Act. There is clearly a need for better coordination 
of energy/water activities among Federal agencies as well as 
the public/private entities. There is clearly a need for more 
consistent and accessible, high quality data and of course, 
there is clearly a need to identify and conduct appropriate 
research to support the adoption of efficient technologies.
    In closing I'd like to thank Senator Murkowski and her 
staff, especially Ron Falbish, for devoting so much attention 
to an issue that is not only critical to the power sector, but 
for the well being of the Nation.
    I'd like to also acknowledge the Department of Energy's 
increased focus on leadership under Secretary Moniz and the 
Department of the Interior's work, especially through the USGS, 
in providing important data related to the energy/water nexus.
    Thank you for the opportunity to testify before the 
committee today.
    [The prepared statement of Ms. Ray follows:]
  Prepared Statement of Anda Ray, Vice President for Environment and 
    Chief Sustainability Officer, Electric Power Research Institute
    Chairman Schatz, Chairman Landrieu, Ranking Member Murkowski, 
Ranking Member Lee: My name is Anda Ray, and I am Vice President for 
Environment and Chief Sustainability Officer for the Electric Power 
Research Institute, frequently referred to as EPRI.
    Thank you for inviting me to testify before the Water and Power 
Subcommittee of the Senate Energy and Natural Resources Committee on 
the subject of the energy-water nexus and S.1971, the Nexus of Energy 
and Water for Sustainability (NEWS) Act of 2014. This is certainly a 
critical issue not only for the power sector, but also the long-term 
well being of the Nation.
    EPRI conducts research and development relating to the generation, 
delivery and use of electricity for the benefit of the public. An 
independent, nonprofit organization, EPRI brings together its 
scientists and engineers as well as experts from academia and industry 
to help address challenges in electricity, including, reliability, 
efficiency, affordability, health, safety and the environment. EPRI's 
members represent approximately 90 percent of the electricity generated 
in the United States. EPRI has some 700 staff and an annual budget of 
nearly $400 million. EPRI's principal offices and laboratories are 
located in Palo Alto, CA; Charlotte, NC; Knoxville, TN and Lenox, MA.
    Water availability represents a growing concern for meeting future 
power generation needs. Thermoelectric plants of all types, including 
nuclear, coal, oil, gas, solar thermal and biofuels were designed to 
use the once plentiful water resources as their primary cooling 
component. And the need for cooling water continues today, at a time of 
declining supply, both globally and domestically. In the United States, 
projected population growth rates, energy consumption patterns, and 
demand from competing water use sectors will increase pressure on power 
generators to reduce water use. Water is critical to the electric power 
industry. It is also used for such things as fuel processing, ash 
handling, scrubbing, landscape integration, and potable requirements 
for power plants. In addition, the economic viability of the nation's 
communities served by the electric power sector depends on the 
availability of reasonably priced freshwater.
    Approximately 40% of all fresh water withdrawals in the United 
States are by the electric sector. However, the electric power sector 
is responsible for only approximately 5% of the nation's total 
freshwater consumption, making it one of the least ``consumptive'' 
industry sectors. That is because, most of the water withdrawals are 
not consumed, but returned to its source. 90% of the water withdrawn is 
used for cooling purposes, primarily for condensing steam exhaust from 
the turbines that drive the generators.
    While water is critical to the electric power industry, the reverse 
is also true: electricity is critical to water. Without electricity, 
most Americans would not have access to clean water. Approximately 2% 
of electricity in the United States is used to transport and treat 
water and wastewater.
    EPRI is founded on a collaboration model and water resource 
research has been an important body of work since the 1970s. EPRI has 
focused on thermal power plant cooling, water availability and reducing 
energy use for the transportation and treatment of water. All of which 
are encompassed in the scope of the proposed NEWS Act.
    I will briefly describe some of EPRI's work related to energy 
conservation for water, and water conservation for energy research as 
relevant to informing this hearing.
    I'll start with an example of the need for consistently reported, 
high quality data. EPRI's water analytics research includes development 
of methodologies and tools to better understand and sustainably manage 
water resources and risk management needs at national, regional and 
local levels. EPRI's ``Water PRISM'' model can be used to evaluate 
water allocations for all sectors, including energy, municipal, 
agricultural, industrial and ecosystem requirements. The model can be 
used to project water needs for the next 30-50 years, including 
conservation efforts in each sector, and to assist in determining 
whether use of the available finite water resource can be sustained and 
maintained. Water Prism focuses on modeling at the watershed level, 
since there are significant regional variations in water use and 
availability. The model relies on data that is often provided by 
federal agencies such as the United States Geological Survey (USGS) and 
United States Army Corps of Engineers (USACE), state and local 
governments, and industry. You can see where access to high quality 
data sets is imperative to attain accurate modeling of future 
conditions.
    Another example is where the adoption of innovative technologies 
can lead to more efficient energy utilization practices for water use. 
EPRI's research on energy use for water work focuses on 
characterization and conservation of electricity used for transport, 
treatment and distribution of water and wastewater. U.S. public 
drinking water systems use roughly 39.2 billion kWh per year, which 
corresponds to about 1% of total electricity use in the U.S. Most of 
the energy use is related to pumping. A small percentage of water is 
supplied from the desalination of sea water and brackish water (less 
than 4%), but this is growing. Desalination is the most energy 
intensive process with respect to water supply. Municipal wastewater 
treatment systems in the U.S. use approximately 30.2 billion kWh per 
year, or about 0.8% of total electricity use in the U.S. There exist 
various technologies ready for pilot testing or proof of concept 
research that have the potential to increase energy efficiencies both 
for water delivery and waste water treatment such as advanced microbial 
deammonification and Supervisory Control and Data Acquisition (SCADA) 
systems. Collaborative and synergistic research is going to be key to 
leveraging the finite resources that are dedicated to research and 
development.
    The final area of research I'd like to mention, specifically 
addresses thermoelectric generation. I have saved this for last because 
it is perhaps the most central to the hearing today. Since most of the 
water withdrawn by the power sector is used for cooling purposes, it is 
understandable that much of EPRI's research on water is directed 
towards improved options for thermoelectric cooling. Since one 
technology cannot meet all of the requirements for every power plant, 
EPRI has funded a suite of research projects on multiple fronts. Each 
technology has benefits and tradeoffs, with initial barriers such as 
initial cost, operating and maintenance issues, efficiency penalties, 
environmental impacts, reliability and safety. Our collaborative 
research programs have targeted these issues by addressing the 
following:

  <bullet> Reducing the cost and energy penalties associated with dry 
        cooling
  <bullet> Developing new water saving wet, dry and hybrid cooling 
        technologies
  <bullet> Identifying and characterizing degraded water sources such 
        as municipal wastewater treatment plant effluent, agricultural 
        discharges, storm water runoff, water produced in association 
        with oil and gas extraction, and brackish groundwater, and
  <bullet> Researching more efficient treatment technologies to reduce 
        the cost of wastewater and degraded water treatment and reuse.

    A collaborative, public-private industry-wide effort is needed to 
evaluate the performance of a number of innovative new ideas, lab 
prototypes, and early stage commercial technologies that have the 
potential to reduce plant water use anywhere from 15% to 100% while 
substantially limiting adverse impacts on power production. Research to 
develop the design basis for the technologies and to demonstrate them 
in actual power plant environments is necessary. To help advance this 
research agenda, EPRI has actively pursued partnerships with the 
National Science Foundation and the Department of Energy, and partnered 
with industry and academia to leverage research funding and results. As 
an example industry partnership, EPRI is collaborating with Georgia 
Power Corporation (GPC) and Southern Company Services (SCS) to support 
the Water Research Center (WRC), located at Plant Bowen in 
Cartersville, GA. The WRC is an important option in the Water R&D 
``pipeline'' to accomplish the advanced cooling and water treatment 
research objectives described above.
    The NEWS Act would encourage information exchange between Federal 
Departments and agencies ``to leverage existing programs by encouraging 
joint solicitation's, block grants, and matching programs with non-
Federal entities,'' and ``to identify opportunities for public-private 
partnerships, innovative financing mechanisms, and grant challenges.'' 
EPRI's collaborative business model has long found such partnerships to 
be productive in advancing science and technology for the benefit of 
the public, the industry and government. There is always room for 
greater collaboration to increased opportunities to leverage scarce 
resources
    For example, EPRI and the National Science Foundation have joined 
together to launch a joint research program to develop advanced cooling 
technologies. Each organization has contributed funds totaling $6M over 
3 years, and EPRI and the NSF have funded 10 promising cooling 
projects. EPRI and the NSF recently held a joint workshop to review 
these 10 projects. This public-private partnership is leveraging both 
industry money and federal money to develop technologies with the 
promise of providing novel ways of cooling with substantially less 
water consumption. Some of these technologies show promise not only for 
power plant cooling, but for many other types of cooling application as 
well.
    EPRI has also explored developing a collaborative research 
arrangement with the Department of Energy (DOE) on thermoelectric 
cooling research. EPRI has experience coordinating research programs 
with DOE in other areas. For example, in 2010 EPRI and DOE executed a 
Memorandum of Understanding (MOU) with DOE in the area of Nuclear Plant 
Long Term Operations research. This MOU calls on EPRI and the DOE to 
periodically map the related research of each organization, helping 
ensure that EPRI and DOE take advantage of each other's scientific 
findings, avoid duplication of effort, and advance joint objectives. 
Should DOE ramp up its cooling technology efforts, such an arrangement 
with energy-water nexus research could be helpful as well.
    The NEWS Act would also serve to ``coordinate and develop 
capabilities for data collection, categorization, and dissemination 
from and to other Federal departments and agencies.'' I would note that 
coordinating and disseminating data to and within the private sector is 
important as well, to encourage public-private partnerships and 
synergies.
    Since a major focus of the NEWS act is coordination of energy-water 
nexus efforts within the federal government and engagement with the 
private sector, it is appropriate to mention some of the ways EPRI can 
already see the many facets of government that are already engaging, in 
some way, in the Energy-Water nexus. EPRI, along with other 
organizations representing diverse public and private water resource 
stakeholder groups, serves on the Federal Advisory Committee on Water 
Information (ACWI). Through ACWI, EPRI provides technical advice to 
USEPA, USDI, USDA, USACE, TVA and NOAA. EPRI belongs to the Energy/
Water Nexus Group, a consortium of national energy laboratories 
actively engaged in studying the energy/water nexus. EPRI also 
partnered with national energy laboratories and the University of Texas 
on an investigation of the Water Constraints on Western Energy 
Interconnects, funded by USDOE on behalf of WECC and ERCOT. In 
addition, EPRI co-authored, along with Sandia, Los Alamos and NETL, the 
USDOE report, Energy Demands on Water Resources, Report to Congress on 
the Interdependency of Energy and Water (2006).
    In summary, with almost 4 decades of research in this area, EPRI 
has identified some similar gaps as those in the NEWS Act. There is a 
need for better coordination of energy-water activities among federal 
entities, as well as the public and private sectors. There is a need 
for more consistent, transparent and high quality data. And of course, 
there is ongoing need to identify and conduct appropriate research to 
support the adoption of effective, efficient and affordable innovative 
technologies.
    EPRI looks forward to continued growth in public/private 
cooperation to address this strategic research need. With your 
assistance, the United States can become a leader in water stewardship 
and provide the technologies needed for conservation of this vital 
resource. Thank you again for the opportunity to testify before the 
committee today.

    Senator Baldwin. Thank you, Ms. Ray.
    Next we hear from Ms. Dickinson.

 STATEMENT OF MARY ANN DICKINSON, PRESIDENT/CEO, ALLIANCE FOR 
                        WATER EFFICIENCY

    Ms. Dickinson. Thank you.
    I represent today the Alliance for Water Efficiency. We are 
very pleased to be here today to speak in support of S. 1971, 
the NEWS Act of 2014. We believe that passage of this bill will 
be a critically important first step in promoting better joint 
management of two important natural--national resources, water 
and energy and beginning at the Federal level.
    On May 15, 2014 we filed with you an official support 
letter but it was signed not only by us, but by 30 different 
organizations, clearly showing strong support for this 
important issue.
    We have been interested in the relationship between water 
and energy since we were founded 7 years ago. A project of 
which we're particularly proud is a joint effort we undertook 
with the American Council for an Energy Efficient Economy, 
ACEEE, in 2010 to coalesce the views of 75 organizations 
involved in the water/energy arena. The resulting work product, 
A Blueprint for Action, contains numerous recommendations for 
national and State action in the areas of policy, standards and 
codes, programs and research.
    Of particular importance to this hearing and to us at the 
Alliance for Water Efficiency is the recommendation in the 
Blueprint that we accurately determine on a national basis how 
much water is needed or embedded in the generation of 
electricity and how much energy is needed or embedded in 
drinking water pumping and treatment as well as waste water 
treatment.
    With a fuller understanding of the significant relationship 
Federal policies and funding programs can be developed which 
will cost effectively and collectively save the most amount of 
energy and water for the United States. We believe that S. 1971 
provides the perfect vehicle for obtaining this information on 
a national level and beginning to develop regional and national 
data bases of energy and water use.
    Subsequent to publication of our Blueprint for Action and 
following one of the report's specific recommendations we 
created, in 2001, a water/energy research committee composed of 
43 energy and water experts from all over the U.S. This group 
convened regularly to share reports on the latest water/energy 
research work.
    In June 2013 we cataloged the available primary research 
that had already been undertaken and assembled links to over 
200 publicly available primary research documents that are now 
posted in a 44 page, online data base and summarized in a final 
report which we published in June with ACEEE. Both the report 
and the data base are online and the links are in the 
testimony.
    There are 38 findings about the existing research.
    Overall, we found that few detailed studies exist that 
audit embedded energy and water and waste water systems. No 
such assessments have been done at a regional or national 
level.
    What do exist are very high level assessments. Most of the 
research has been published within the past 10 years. So it's 
relatively recent. But we do believe that public funding of 
research is also needed to spur additional investigations of 
alternative clean sources of energy and water.
    So the report concluded with 13 recommendations for new 
research and policy actions which are in the testimony, but 
which I won't go and read now.
    I'd like instead to conclude with making 3 basic points to 
end my testimony.
    Water efficiency, No. 1, is successfully saving the 
Nation's water and energy resources and helping to defer 
expensive new capacity infrastructure. This has been a 20 year 
effort beginning with the Federal Energy Policy Act of 1992 and 
subsequent legislative changes. We estimate that for toilets 
alone, 18.2 trillion gallons of water have been saved over the 
past 20 years of implementation of this act, equivalent to the 
water use of Chicago, Los Angeles and New York combined for a 
20-year-period.
    EPA's WaterSense label launched in 2006 has labeled nearly 
11,000 products. The sales of which have resulted in 757 
billion gallons and 101 billion kilowatt hours saved. EPA's 
work in this area is a significant achievement in a very short 
time. We believe the program deserves Congressional 
authorization and funding.
    Saving water saves energy. The benefits are documentable. 
California has done terrific work in this area which is all in 
the public record.
    Now we believe that the work that's been undertaken in 
California can be productively used to estimate energy savings 
from future water efficiency programs which include a wide 
variety of measures and not just limited to hot water 
efficiency programs.
    An examination of how Federal actions can promote research 
and program incentive funding into this area is desperately 
needed and could be part of S. 1971.
    Last, research should be undertaken to examine the energy 
and water benefits from integrated approaches at the local 
level.
    In Boston, the Charles River Watershed Association is 
leading a highly innovative project to build new waste water 
treatment plants that generate electric energy, capture thermal 
energy from the waste water to heat and cool surrounding 
buildings and reuse the treated water ultimately returning the 
treated water to the ground to restore lost urban streams. This 
approach is truly transformative providing renewable energy, 
reducing water consumption and building community resilience. 
The potential for energy savings is significant. CRWA 
estimates, at a minimum, one megawatt of electricity each day 
for each million gallons of waste water treated.
    These types of innovative projects should certainly be 
researched and incentivized so that they can be replicated 
across the country.
    To conclude, we strongly support the passage of S. 1971 as 
a needed first step in coordinating Federal activities in this 
important energy/water nexus area.
    We further recommend that a national policy be instituted 
to allow energy efficiency funding to be used for cold water 
conservation programs as well as hot water programs because of 
the clear, embedded energy benefits that this investment would 
provide.
    Thank you for the opportunity to comment.
    [The prepared statement of Ms. Dickinson follows:]
 Prepared Statement of Mary Ann Dickinson, President/CEO, Alliance for 
                            Water Efficiency
    The Alliance for Water Efficiency is pleased to speak in support of 
S. 1971, The Nexus of Energy and Water for Sustainability Act of 2014. 
This bill would provide direction for federal coordination of water and 
energy programs within the National Science and Technology committee, 
specifically to coordinate and streamline federal activities related to 
the management of the energy-water nexus. Passage of this bill will be 
a critically important first step in promoting better joint management 
of these two important national resources, beginning at the federal 
level. On May 15, 2014 we filed with you a support letter on the bill 
signed by 30 different organizations.
    The Alliance is a non-profit organization of diverse stakeholders 
with experience in water conservation programs and policies, and 
dedicated to furthering the efficient and 2 sustainable use of water in 
North America. It is the only non-profit organization devoted solely to 
this purpose.
    We have been interested in the relationship between water and 
energy since we were founded seven years ago. A project of which we are 
particularly proud is a joint effort we undertook with the American 
Council for an Energy Efficient Economy (ACEEE) in 2010, to coalesce 
the views of 75 organizations involved in the water-energy arena. The 
resulting work product, A Blueprint for Action, contains numerous 
recommendations for national and state action in the areas of policy, 
standards and codes, programs, and research. Of particular importance 
to this hearing and to us at the Alliance for Water Efficiency is the 
recommendation in the Blueprint that we accurately determine on a 
national basis how much water is needed (or ``embedded'') in the 
generation of electricity, and how much energy is needed or 
``embedded'' in drinking water pumping and treatment as well as waste 
water treatment. With a fuller understanding of this significant 
relationship, federal policies and funding programs can be developed 
which will cost-effectively and collectively save the most amount of 
energy and water for the United States. We believe that S. 1971 
provides the perfect vehicle for obtaining this information on a 
national level and beginning to develop regional and national databases 
of energy and water use. (Electronic copies of A Blueprint for Action 
can be downloaded at the following link: 
www.allianceforwaterefficiency.org/blueprint.aspx.)
    Subsequent to the publication of A Blueprint for Action and 
following one of the report's specific recommendations, the Alliance 
for Water Efficiency created in 2011 a water-energy research committee 
composed of 43 energy and water experts from all over the US, and this 
group convened regularly to share reports on the latest water-energy 
research work. In 2013, the Alliance for Water Efficiency catalogued 
the available primary research that had been already been undertaken, 
and assembled links to over 200 publicly-available primary research 
documents that are now posted in a 44-page online database and 
summarized in a final report which we co-published in June, 2013 with 
ACEEE. (Both the database and the final summary report are at: 
www.allianceforwaterefficiency.org/Water-Energy-Research-Group.aspx.)
    The published report listed 38 findings about the existing research 
as of June, 2013. Overall we found the following:

  <bullet> Few detailed studies exist that audit embedded energy in 
        water and wastewater systems, and no such assessments have been 
        done at a regional or national level. What do exist are very 
        high level assessments.
  <bullet> Most of the available research has been published within the 
        past 10 years.
  <bullet> Public funding of research is needed to spur additional 
        investigations of alternative clean sources of energy and 
        water.

    The report concluded with 13 recommendations for new research and 
policy actions on a national level which could be addressed with the 
passage of S. 1971:

          1. Develop comprehensive studies and associated guidelines to 
        conduct a detailed audit of embedded energy demands for an 
        entire local, regional or national water/wastewater system for 
        purposes to determining system optimization.
          2. Assess technical and economic energy efficiency and demand 
        response potential in water and wastewater systems and develop 
        industry accepted guidelines for such studies on individual 
        systems.
          3. Identify and eliminate regulatory barriers to co-
        implementation of efficiency programs in the water and energy 
        sectors.
          4. Develop water AND energy industry-accepted Evaluation, 
        Measurement and Verification (EM&V) protocols for use in 
        efficiency programs.
          5. Develop industry standards, protocols and business models 
        for advanced biogas development programs and net zero 
        facilities at wastewater treatment plants.
          6. Conduct landscape irrigation equipment efficiency 
        potential studies to support establishment of efficiency 
        standards.
          7. Identify rate structures, price constructs, and financing 
        mechanisms that eliminate the disincentives of efficiency 
        programs and alternative supplies use in the water sector.
          8. Evaluate technologies and practices that can reduce the 
        energy demand of desalination and lower its costs.
          9. Continue investigations into the water energy tradeoffs of 
        differing resource development & management choices that can 
        better inform multi-sectoral integrated resource planning.
          10. Develop technologies and protocols that can increase 
        water use efficiency and reuse, support water supply switching, 
        and reduce water quality impacts of power generation facilities 
        and other energy fuels development.
          11. Assess potential impacts to water supplies and quality of 
        energy resource development, such as fracturing for natural gas 
        and biofuels development; identify methods, practices and 
        technologies that reduce or eliminate these impacts
          12. Develop supply chain and product embedded water-energy 
        evaluations that inform consumers of the energy and water 
        intensity of the products or services they buy
          13. Identify effective methods, forums, practices and other 
        mechanisms for communication and engagement by the research and 
        policy communities to ensure commercialization and adoption of 
        research results and technological developments.

    We wish to conclude our testimony by making three basic points:

1. Water efficiency is successfully saving the nation's water and 
        energy resources and helping to defer expensive new capacity 
        infrastructure
    Federal plumbing product and appliance standards, in effect since 
the Energy Policy Act of 1992 and refined in subsequent legislation, 
have produced significant savings (see Table 1). The Alliance for Water 
Efficiency estimates that at least 18.2 trillion gallons of water 
savings for just toilets alone, equivalent to the 20 years of combined 
water use of the cities of New York, Chicago, and Los Angeles. EPA's 
WaterSense label, launched in 2006, has labeled nearly 11,000 products, 
the sales of which have resulted in 757 billion gallons and 101 billion 
kWh hours saved. EPA's work in this area is a significant achievement 
in a very short time, and the program deserves Congressional 
authorization and adequate funding.
2. Saving Water Saves Energy--and the benefits are documentable
    California has been a leader in this area, having done the seminal 
research in 2005 which the Blueprint for Action recommends be 
duplicated nationwide. This work by the California Energy Commission 
showed that the amount of embedded energy in water and wastewater was 
in the range of 2,000 kWh to 20,000 kWh per million gallons of water 
produced (see Figure 1)*. Further studies completed by the California 
Public Utilities Commission clarified in more detail the extent of 
embedded energy in a variety of different water supply sources (see 
Table 2). Energy intensities for drinking water and wastewater 
treatment technologies were documented in pilot projects. Now these 
values can be productively used to estimate energy savings from future 
water efficiency programs which include a wide variety of measures, and 
which should not be limited to just hot water efficiency programs. An 
examination of how federal actions can promote research and program 
incentive funding into this area is desperately needed.
---------------------------------------------------------------------------
    * Figure has been retained in subcommittee files.
---------------------------------------------------------------------------
3. Research should be undertaken to examine the energy and water 
        benefits from integrated approaches at the local level
    In Boston, Charles River Watershed Association is leading highly 
innovative work to build new wastewater treatment plants that generate 
electric energy, capture thermal energy from the wastewater to heat and 
cool surrounding buildings, and reuse the treated water, ultimately 
returning the treated water to the ground to restore lost urban 
streams. CRWA anticipates using restored urban streams to spike housing 
and commercial development while actually providing new storage in the 
City for floods and droughts. The approach is truly transformative, 
providing renewable energy, reducing water consumption, and building 
community resilience. The potential for energy savings is significant: 
CRWA estimates at a minimum one megawatt of electricity each day for 
each million gallons of waste water treated. (That the approach will 
also restore the Charles River is an added benefit.) These types of 
innovative projects should certainly be explored and incentivized so 
that they can be replicated across the country.
    To conclude, we strongly support the passage of S. 1971 as a needed 
first step in coordinating federal activities in this important energy-
water nexus area. We further recommend that a national policy be 
instituted to allow energy efficiency funding to be used for cold water 
conservation programs as well as hot water conservation programs 
because of the clear embedded energy benefits that this investment 
would provide.
    Thank you for the opportunity to comment. 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Senator Baldwin. Thank you, Ms. Dickinson. Thank you to all 
of our witnesses today.
    As I said earlier I'm very delighted, in fact, that our 
committee is highlighting the critical relationship between 
energy and water.
    In Wisconsin forward looking energy and water strategies 
are also driving economic development which is always very 
exciting. My State is home to, what is becoming, a world hub 
for water research in industry innovation in the Milwaukee 
region of the State. Both public and private entities in the 
State have partnered together to lead international 
conversations on fresh water management, treatment and 
efficiency. These efforts have been led by the Water Council at 
its Global Water center in Milwaukee.
    That center is a water research hub and business 
accelerator for water related businesses. Members of the Water 
Council are involved in many aspects of the water/energy nexus. 
From breweries, which by the way are a big business in 
Wisconsin, that have reduced their water use and made their 
processes much more efficient to companies that are designing 
the next generation of highly efficient water heaters that 
reduce water use and energy consumption.
    Dr. Pershing, I was pleased to hear your testimony and see 
the Department's focus on the energy/water nexus. It's 
obviously a broad topic with many implications across the 
economy. The recent white paper pointed out to a role that DOE 
will have with research and development.
    In your testimony you also talked about the competency that 
you bring with regard to stakeholder engagement. So I'd like to 
hear more about how the Department will focus on this and will 
partner with existing institutions like the Water Council that 
I was just talking about which have already laid the ground 
work in establishing public/private partnerships that are so 
important to transferring research into commerce.
    Mr. Pershing. Thank you very much, Senator.
    I had the opportunity to engage with some of the folks at 
the Water group, the Council. They have a very interesting 
website. A lot of work, in fact, is going on there now. I did 
part of my work in Minnesota just across the way. So we have 
some of the same overlapping issues that play on both sides.
    The DOE work, I think, fits nicely into a couple of 
categories. Part of what we bring to the table is this really 
deep capacity in technology development and support and that 
crosses an enormous array of issues. On one end it's around how 
do you make efficiency improvements in water requirements?
    As a number of the other panelists have suggested, 
efficiencies can be found in every sector of the energy system. 
The big one, obviously, is in withdrawals and pass through for 
cooling. So we've got technology R and D on how you can reduce 
that.
    Now there are some tradeoffs. So for example you can either 
run it through your system (in which case you pass it back out 
and it's heated up a little bit) or you can consume it, in 
which case it mostly evaporates. The latter uses less water in 
terms of how much flows through, but it is then no longer 
available. It doesn't pass through to the next user.
    So there's tradeoffs that you have to think about in that 
domain. Work that we are currently investing in is how do you 
use less to cool more?
    But you can look at other sectors as well. Look at oil and 
gas. An enormous amount of water goes in.
    The, kind of, rule of thumb number that you might think 
about, for every barrel of oil produced 7 to 8 barrels of water 
are required. That's a big number. You start thinking about 
what that implies in terms of opportunities to do better.
    Could you do it for less water? What does that mean? What 
else could you use besides fresh water?
    I lived in Alaska for a number of years. When I was there, 
we did sea water injection as part of oil extraction. We now 
use CO<INF>2</INF>. These are very interesting, different kinds 
of models.
    There are other ways to do this--ways to minimize your 
water requirements and really move forward.
    Then to comment briefly on the other part of your question, 
how do you engage?
    I'll give just two examples, but there's a legion. Many, 
many of them are done with interactions between players in the 
public and private sector.
    States, many of your States, but all the ones on the 
committee here, have been very interested. There is a lot of 
work underway, with local players and actors. A great deal of 
work is underway from water utilities, and also power 
utilities.
    There's an enormous amount of work in the private sector. 
People who make commercial profits out of this as well as in 
the public, civil society.
    Our effort in developing this report and in going forward 
has been to engage as many of those actors as we can.
    Senator Baldwin. I think my next question will take more 
than my 40 seconds. So maybe we'll do another round. But why 
don't I yield right now to Ranking Member Murkowski.
    Senator Murkowski. Thank you.
    I want to continue with you, Mr. Pershing, just for a 
moment. I have welcomed your report out of DOE and others have 
as well. I think it does a pretty good job in terms of 
summarizing where we are, the relevant issues.
    You talk about some of the technological innovations that 
are out there and how working together with related R and D we 
can promote some of these efficiencies that, I think, will be 
that breakthrough whether it's for the oil and gas industry or 
whatever it might be.
    But as I mentioned in my opening statement what we haven't 
clearly identified is what that path forward is then on how the 
Department would implement an energy/water nexus R and D 
program. You've mentioned that you've got a technology research 
portfolio analysis that will address the risk performance 
targets, impacts, R and D pathways and learning curves.
    Is this something that is being outlined in this next step 
forward? Just a little bit of a discussion here, if we may, 
about how we can implement this R and D initiative that we're 
all talking about.
    Mr. Pershing. Thank you very much.
    I think that there are two different parts where I'd like 
to frame for you the way we're thinking about it.
    The first one really has to do with data. I think a number 
of us have commented on this particular question going forward. 
I am struck in the work that we've done so far on how difficult 
it's been to even really get a good handle on the data. Exactly 
where is the energy going? Exactly where is the water going? 
How do we understand it regionally? How do we understand it by 
technology?
    I think we need much more work on data. We have some 
institutions that collect some. It's not comprehensive. It's 
not longitudinally very good. It means you don't have long 
timelines for it.
    We don't do a very good job about projecting what that 
might look like in the future--which means some modeling 
capacity. How do you think about where it's going to go?
    I think that's been very clearly identified as a big gap in 
our work. We think we have to pursue that direction.
    The second is a different box--really are about 
technologies and to a certain extent they're contingent on the 
first one.
    If we make some decisions, collectively, around what kind 
of energy system we might have, we will make certain other 
decisions about its water implications. So for example, at the 
moment we have these enormous new reservoirs of gas coming into 
the system, really opening up windows of opportunity for the 
country. We have a very great interest in all the new capacity 
we've got on renewables.
    Both of those open up questions around water demand. We can 
begin to look specifically at the technologies that could 
minimize that demand in those systems.
    So we're looking at those two tracks. I don't mean to limit 
to those two technologies. But broadly, the technology 
opportunities that you can take to really reduce consumption 
and the data and the data structure. I think both of them 
really require more work.
    This report begins to lay out issues, barriers, 
vulnerabilities. Where we are now is in designing next steps 
and recommendations.
    Senator Murkowski. Comparing what you're outlining and what 
Mr. Iseman mentioned, you've got a water census that you're 
working on. So much of what it appears we need to do in 
addressing these data gaps is it may be that we don't have the 
gaps there. But we just don't know what you all are doing in 
DOI verses what you are doing in DOE which brings us back to 
this need for collaboration in a way that takes us outside of 
our silos.
    This has been the struggle. This is not unique to this 
issue. This is something that is endemic to our systems here.
    But it seems to me that this is an area where if we can 
truly work to be sharing more of what is going on with one 
another. We're not reinventing. We're building off of the data 
that we acknowledge may not be 100 percent. But if we take what 
you have been building and what you have been building, we 
might get there a heck of a lot quicker.
    I worry about whether or not what we're doing is sufficient 
and that was the impetus for this NEWS Act, to try to get all 
of the relevant stakeholders working together.
    In the next round here I think I want to talk a little bit 
more about this whole governance aspect of it because if we 
can't figure out how we do that then we're going to continue to 
operate in our silos, collecting our data and thinking well, we 
got about 75 percent of it here. But we can't get any more.
    So when we talk about what that path forward is for the 
Departments I really do hope that we can coalesce more around 
some genuine partnering that takes us outside of our usual 
comfort zones, I guess.
    Senator Baldwin. There are a number of companies, I guess 
there's a theme for my questions which are things happening in 
Wisconsin. That's not unusual for me. But there are number of 
companies that are working on innovative ways to process waste 
water in the State to reduce the energy used in that 
processing.
    One company in my hometown of Madison, called AquaMost now 
makes a low energy, water treatment system specifically to 
recycle the waste water in oil and gas processing. This reduces 
the water used in hydraulic fracturing and also reduces the 
energy used to produce natural gas.
    On the residential and community side, the city of 
Milwaukee has set a goal of using renewable energy for 100 
percent of the energy needs in waste water treatment. They're 
doing so by using anaerobic digesters and methane from a local 
landfill.
    I'm interested in hearing from the entire panel on what 
types of barriers exist to the adoption and development of 
these types of technologies. We've just been talking about the 
limitations of information and data. So please, since all of 
you have referenced that in your testimony, feel free to 
identify that or elaborate on that. But what sort of additional 
information would help drive this sort of innovation that we're 
seeing and improve the efficiencies that are being delivered by 
products like the ones that I was just referencing.
    Dr. Pershing, why don't we start with you and get a couple 
of comments from each of our panelists?
    Mr. Pershing. So thank you very much.
    I don't know this particular company. But there is other 
work like it underway. So I'll kind of draw from that broader 
example.
    I think it's an enormously promising area of work. Some of 
the DOE activities, in fact, specifically are designed around 
at looking at waste water and waste water treatment and the 
energy sector component of that. How you can manage that.
    So let me turn to the other question because I think there 
is technology unfolding--and I see barriers falling into a 
couple categories.
    One, it tends to be higher cost. At the moment many times 
what you've got is a conventional supply that can provide 
energy at an assured rate with guaranteed performance. You've 
got this new technology which frankly has somewhat different 
risks attached to it.
    Two, you often have a process in which the company that's 
seeking to make the investment doesn't have a privileged 
position. It's already looking at an existing relationship. So 
how do you manage to move into that kind of arena? The existing 
one may be working perfectly well, right? So it has a different 
set of characteristics, but it's doing fine.
    Three, we tend not to value some of the things around water 
costs the same way as we do around energy. So if we take a look 
at the relative rank ordering as a business matter, its often 
about prioritizing by price and price right now is much more 
focused on my energy costs than on water costs.
    As a business, if I can find ways to think about these 
connections differently, perhaps I'd change that, but that 
requires a very different approach than we've ever sought to 
take. At the moment I don't see that as very likely for most 
jurisdictions.
    Then finally there's the question about how this technology 
is maintained and run. I'm a business. I look out there at the 
world and I say nobody else is doing this. Do I want to be 
first?
    If I can't manage my waste I have a really big problem in 
Milwaukee. If I can do it, I'm happy to be third or maybe 
fifth, once the technology has been proven.
    So one of the things we think we probably have to do 
something about is on deployment. Create some models where its 
tried, and something where people could point to it and say it 
was used here, successfully, at a price I could meet.
    That demonstration component is another part of what DOE 
can often bring to the table.
    Senator Baldwin. Mr. Iseman.
    Mr. Iseman. Thank you.
    I would first say two things.
    That our two bureaus that I described, the U.S. Geological 
Survey and the Bureau of Reclamation are both doing work on 
waste water disposal and waste water treatment. I agree that 
it's an important area of opportunity. A lot of work is 
focusing on better technologies, ways to reduce the costs and 
energy associated with waste water treatment. So it's 
consistent, I think, with what you described for those farms in 
Wisconsin.
    I think Dr. Pershing did a great job of identifying some of 
the barriers.
    I would just go to the point about cost. I think one of the 
things we see and particularly in the Western United States is 
there's more demand or more scarcity for water supplies. We're 
going to see an additional driver to improve some of those 
treatment technologies.
    Senator Baldwin. Dr. Carter.
    Ms. Carter. Thank you for the question.
    Similar to Mr. Iseman, there are actually a lot of 
opportunities. So yes, there are barriers, but we're actually 
seeing an energy sector. A lot of these technologies are 
already adopted.
    We have seen significant changes in how unconventional gas 
in say, the Marcellus, is being developed using reused water, 
using some of these technologies to treat it for a second time 
in a fracking operation as well as treatment processes for the 
water that's produced from those operations.
    So we're actually, not just--we don't just have barriers. 
We actually see some adoption especially in the rapidly 
changing energy sector.
    Similar to what Dr. Pershing said, I think there are also 
opportunities for demonstration including some demonstration 
facilities that the Bureau of Reclamation has. But there are 
also a lot of opportunities internationally that are happening 
for demonstration. But getting--those are fairly competitive to 
get to participate in some of those. So I think there--you do 
hear companies identifying that demonstration is sometimes a 
barrier.
    Then as more attention is given to the energy/water nexus 
and the potential risks and vulnerability it represents than 
you are actually seeing more interest as well. So I think the 
barrier, in part in the past, had been education and 
understanding and that is starting to diminish.
    Senator Baldwin. Thank you.
    Ms. Ray.
    Ms. Ray. OK. I think I'll address most of the technologies 
associated with the thermoelectric which also you have in 
Wisconsin as well.
    Senator Baldwin. OK.
    Ms. Ray. So I think the biggest issue is there's not a one 
size fits all. There's not a silver bullet for solving these 
issues.
    On the thermoelectric side you've got the cost issues, the 
retrofits verses the technologies that are primarily for new 
installations and that goes for water treatment as well as for 
power, thermoelectric power plants.
    You've got efficiency penalties. How do certain fans, if 
you're using fans, what the penalty for the amount of 
electricity that they're using verses what that power plant may 
be producing?
    You've got local synergies. For instance you mentioned the 
methane gas that they were burning. If you have those co-
located that provides a tremendous benefit that someone else in 
another facility wouldn't have.
    Then finally the footprints that are required. Sometimes 
there just physically isn't enough, like for air cold 
condensers that you may put on to do dry cooling for a 
thermoelectric plant or a data center or a refrigeration type 
of industry.
    So I think the biggest issue is there's lots of 
technologies out there. They all have their benefits. But they 
all have tradeoffs associated with reliability, penalties, 
environment safety. You're going to have to find some kind of a 
model that says how can I plug and play what's best for my 
facility in this county, in this city.
    Senator Baldwin. Thank you.
    Ms. Dickinson.
    Ms. Dickinson. This is a great question because it 
encapsulizes all of the issues involved in the research that I 
think this bill would be directing these agencies to do.
    I think you've had some terrific responses from the panel. 
I especially liked Dr. Pershing's barriers list.
    But the thing about the barriers and the reason it would be 
good to catalog those and research the reasons for those 
barriers is that they are constantly changing. Yes, water 
prices are very cheap now. That is not going to be the prices 
of the future.
    As we enter the area of scarcity and, you know, the 
incredible amounts of infrastructure repair and replacement 
that's going on in the water sector, you're going to see 
doubling and tripling of water prices which changes the 
economics of a lot of innovative solutions.
    But I think the biggest thing I wanted to mention here is 
that there's not been enough integration of the solutions. We 
tend to take a problem and identify technology that fixes that 
problem rather than looking at it from a systems perspective 
which is why I mentioned the Charles River Watershed 
Association example because that's a very big attempt to solve 
a number of water issues all at once.
    I think in the water/energy nexus it's not just about 
availability of water. It's about how that water exists in that 
ecosystem too.
    So there are regulatory issues associated which are a 
barrier that I would like to add to Dr. Pershing's list. 
Sometimes from a regulatory perspective the new technology is 
not allowed to function in the way that we would otherwise 
like.
    So I really think this would be a great topic for the 
committee to be addressing under S. 1971.
    Senator Baldwin. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Good. That was good feedback.
    Let me try to drill down just a little bit more with the 
data gaps and the recognition that within the Departments 
you've got work that is ongoing and, you know, how we can 
better collaborate within the Departments, I think, is 
important. But we also have the private sector side and a 
recognition that there's a great deal that is happening on the 
ground, out in the marketplace. Again, a source for taking that 
data and then as we work together really building on it.
    But there are barriers there. There's certain 
sensitivities, I think, that folks have in not wanting to share 
some of this data. So I guess I direct this to you, Ms. Ray and 
Ms. Dickinson.
    What can we be doing from your perspective to encourage 
greater collaboration and efforts when it comes to how we deal 
with the data gaps that we recognize exist here?
    Ms. Ray. So, let me mention that we all know that research 
is very, very costly and money talks. So when there's an 
opportunity to leverage data and resources so that everybody 
can share those people will pay attention.
    But let me give you an example of a sharing opportunity 
that EPRI had with DOE, not in this particular area. It was 
actually in nuclear, long term operations. We had a memorandum 
of understanding in which we specifically set periodic times to 
compare data and research in that particular area. So that we 
could say we wanted to avoid duplication. We wanted to take 
advantage of each other's scientific and technical expertise 
and as well as looking at joint objectives.
    So there was an opportunity to pull that data together and 
do it in such a way that it did not lend to disclosing 
proprietary information that EPRI had with its utility members. 
So there are mechanisms out there. I think people want to see 
an ability to leverage and avoid duplication because it's in no 
one's best interest to have silo data sets.
    Senator Murkowski. Did you want to add anything, Ms. 
Dickinson?
    Ms. Dickinson. Yes. I'm particularly interested in the 
embedded energy and water issue. In that respect there are 
water systems all over the country that probably have data 
within their systems. They can read their electric bills, 
figure out what their embedded energy footprint is for their 
different water supply sources.
    But they don't have a vehicle for sharing that information 
with a broader network. I think the data is out there. I think 
it needs to be assembled. I think there could be partnerships 
that could easily be developed that wouldn't be very costly to 
get some of this information that, I think, would be needed to 
be aggregated on a regional basis and a national basis.
    So I suspect that the data is available in places that we 
just need to go and ask for it.
    Senator Murkowski. Let me ask the question then about 
governance and the structure as we've outlined in the 
legislation here.
    We'll start with you, Dr. Carter on this.
    I do appreciate you've worked well with our staff on this. 
We really appreciate the efforts that you have given in this. 
When we're talking about what the ideal structure of this NEWS 
Committee might look like, the type of interactions that we 
have between the principals, between the other stakeholders 
there, the internal, external.
    Do you have anything further that you might want to share 
with the committee in terms of how we do all of what we've been 
talking about here, better integration of the data that is out 
there, better collaboration, not only within agencies, but with 
our private stakeholders as well?
    Mr. Iseman, in your testimony you have raised concerns 
about this cross cut budget.
    Dr. Carter, you have as well.
    It seems to me that that's something that we have the 
ability to produce a cross cut budget. We've done it with the 
Cal Fed law that this committee enacted several years ago. So 
you both raise concerns in that area.
    Talk to me a little bit about why you think that wouldn't 
work? We're trying to figure out a way that we've got some 
light to, kind of, shine on what's going on out there and 
thought that that might be the approach.
    So if both of you can address that aspect of it?
    Ms. Carter. Thank you, Ranking Member Murkowski.
    I'll start with the second question.
    Senator Murkowski. OK.
    Ms. Carter. So cross cut budgets can and have provided a 
useful function. It is the crafting of them that can make them 
easier or more difficult to assemble. So it is, I'd say, that 
the comments were meant to indicate items that may be harder to 
implement, not necessarily that there would not be a utility 
for that.
    Actually DOE is a good example of where there would be a 
utility. If you look at DOE's FY'15 budget request it says that 
it has a cross cutting initiative for energy and water. But it 
does not identify how much is going to be spent on that 
initiative.
    So what a cross cut would do would be reveal that 
information that the agencies may already know or may have to 
do some data collection to know. But--and they're the only ones 
who can produce that data. So cross cuts can produce very 
valuable information that would not be otherwise available.
    But it's trying to figure out how to do it. Especially 
since it will be an annual cross cut budget that is easily 
assembled and easily produced and provides the most useful 
information for those trying to make decisions based on that 
which will take me to the first question regarding the 
governance.
    So the placement of the NEWS Committee within the NSTC is 
putting it with the other entities with similar goals which is 
basically to have the Administration coordinate among the 
Federal research and development enterprise. Usually the 
Administration--this is an entity that was created by Executive 
Order and that it does these--it creates committees and 
subcommittees and disbands them as need be. In this case 
Congress is saying this is a need.
    This is what they typically do is they try to coordinate 
strategies to identify goals. Then they do sometimes produce 
reports. But often we probably don't see what these committees 
are doing. Often it is those discussions among the 13 
identified agencies that is producing some of the integration 
and results.
    Often, my understanding is that, OMB will contact these 
committees and subcommittees for advice on whether the budget 
that they are proposing is consistent or not with what the 
subcommittees and committees have developed.
    Senator Murkowski. Mr. Iseman.
    Anything at all. So speak to the governance aspect of it as 
well.
    Mr. Iseman. Sure, sure.
    I'll start with a cross cut budget. I just wanted to thank 
you for the question. I agree with your premise.
    I think it was you who stated in your opening remarks and 
also I think it's the premise of the bill that there are a lot 
of these energy/water activities happening in different 
agencies within Interior and across the Federal Government as 
well as with the private sector and with the States. In order 
to do a better job of coordinating that and to do it 
efficiently we need to understand exactly what those activities 
are. So I think it's right that we want a better understanding 
of what's happening across the Federal agencies in terms of 
energy and water activities.
    One of my specific concerns about the cross cut budget was 
the definition of an energy/water project and just making sure 
that that's narrow enough that we get something that's useful 
when we look to gather these activities across the Federal 
agencies.
    I think one of the things that we've looked at and we've 
talked about how the energy/water nexus touches on all these 
issues is that it can sweep in a lot potentially. We want to 
make sure that we get at those issues and activities that are 
really addressing the intersection of energy and water in order 
for this survey to be useful.
    In terms of the governance.
    I'll just say that we would like to continue to work with 
the committee. We've appreciated your efforts and the efforts 
of the committee staff to engage with us and to have a 
conversation about how to structure this coordination.
    We agree that this is an important issue. We do need more 
conversations among the Federal family and with partners. We 
would like to continue to work with the committee and your 
staff to determine the most effective way to do that.
    Senator Murkowski. I think that's truly the goal here. The 
design of this legislation is to figure out how we can be more 
effective, be more efficient with the collaboration and the 
program management.
    Mr. Iseman, both you and Dr. Pershing have indicated that 
from whether it's Department of Energy or Department of 
Interior's perspective that you're continuing to review the 
legislation. I would ask that you continue to work with us on 
this.
    I think that it is an issue that we can talk about here 
with great interest in terms of what's going on with the 
technologies. But as several of you have raised the issue of 
access to water and the affordability of that is one that, I 
think, we have a tendency to take for granted. In particularly 
areas in the South and Southwest right now that are 
experiencing drought, they know that you can't take it for 
granted.
    So many aspects of industry as has been noted, this is a 
pretty intense part of the business. Things are such that we 
just cannot continue to assume that unlimited quantities of 
affordable water will be available to us. So how we work 
smarter, how we work more efficiently is really the challenge 
to us all.
    I think we've got some good constructive ideas and 
approaches here. But I would ask you all to continue to engage 
with us as we try to develop this further.
    With that, I'm done. I just want to thank the witnesses 
for, not only your testimony here this afternoon, but your very 
obvious engagement and input on an important issue.
    Thank you.
    Senator Baldwin. I want to join the Ranking Member in those 
sentiments. Thank you for being here. Thank you for your 
testimony.
    With, there being no further questions, the testimony and 
any statements we receive related to today's hearing will be 
made a part of the official hearing record.
    We will also keep the record open for an additional 2 weeks 
to receive other statements and additional testimony.
    With that this hearing is adjourned.
    [Whereupon, at 4:33 p.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Responses of Tom Iseman to Questions From Senator Murkowski
    Question 1. In the NEWS Act, as in my energy-water nexus 
whitepaper, I call for better and closer collaboration with external 
stakeholders--and especially with the private sector--to promote and 
develop innovative and advanced technologies and scientific tools for 
water for energy and energy for water systems. Could you please share 
with us the current state of affairs and how would you envision 
expanding and enhancing such collaborations?
    Answer. The Department of the Interior (Department) shares the 
Committee's goal of close collaboration with stakeholders around the 
energy-water nexus. Several existing programs and activities that 
relate directly to the energy-water nexus within the Department are 
focused on collaboration with states and non-federal entities. For 
example, the Bureau of Reclamation (Reclamation) is conducting Basin 
Studies to evaluate water supplies and demands over time, including 
under climate change, and to identify adaptation strategies to meet 
future water demands. The Basin Studies are cost-shared and co-led by 
state and local stakeholders and have spotlighted emerging clashes 
between competing demands, including energy, and limited supplies of 
water. Additionally, WaterSMART Grants provide cost-shared funding to 
States, tribes, and other entities with water or power delivery 
authority for water efficiency improvements, with a priority for those 
proposals that describe the estimated energy savings from those 
improvements. These grants provide one vehicle for implementing on-the-
ground solutions to energy-water issues.
    Likewise, through the Cooperative Water Program and other 
activities, USGS is supporting state priorities in better understanding 
water budgets associated with unconventional oil and gas development. 
One recent example of USGS working with state geological surveys, 
academia, and industry to build better tools for the water for energy 
and energy for water systems referenced in your question is the 
compilation and release of an updated produced waters database. 
Produced waters are those volumes of water that are typically recovered 
during oil and gas exploration, development, or production. This 
database is an update of the 2002 USGS Produced Waters Database, adding 
more than 100,000 new samples with greater spatial coverage and from 
both conventional and unconventional oil and gas development. 
Scientists studying produced waters and their geochemical and 
environmental impacts have a powerful new tool in the newly released 
USGS Produced Waters Geochemical Database. This database is publicly 
available to all scientists and interested members of the public.
    As mentioned during the roundtable convened by the Committee in 
July 2013, states play a key role in allocating and administering 
water, and they must be a partner in energy-water efforts. Although the 
base grants program is under spending pressure, we see an opportunity 
to engage the state Water Resources Research Institutes (WRRI) as a 
federal-state bridge. WRRIs exist in every state, they have 
relationships with local players, and they have a strong functional 
relationship with USGS. WRRIs could serve as a local hub and contribute 
to a national, USGS-managed database on water use and its intersection 
with the energy sector.
    Question 2. As we've heard today, the DOE and DOI have been working 
together in the past on data collection related to, for example, 
hydropower development in the U.S. and perhaps on other issues as well.
    How do you envision the expansion of such collaborative efforts in 
the near future, given that the NEWS Act calls for the Secretaries of 
Energy and Interior to work closely together as the co-chairs of the 
proposed Nexus of Energy and Water for Sustainability federal 
coordination committee (the NEWS Committee)?
    Answer. Expansion of collaborative efforts could be accomplished 
through the Department expanding direct collaboration with the 
Department of Energy (DOE) and the energy sector. Currently the 
Department collaborates with DOE on the collection of consistent 
information on withdrawals of water for use in thermoelectric power 
plants. We need to find more effective ways to link DOE's detailed 
information on the status and trends in energy production with 
comprehensive information on water supply and use. The DOE-funded 
project with the Western Governors' Association provides a leading 
example of integrating energy and water information to shape regional 
decisions.
    Coordination often occurs on a project-by-project or as-needed 
basis. This process allows for coordination around the full array of 
energy-water issues, not just within our two Departments but across the 
federal agencies that deal with the energy-water nexus.
    Question 3. I understand that the Water Census activity under the 
WaterSMART initiative is meant to expand, improve and streamline data 
collection on water use in the U.S. Does water ``use'' include 
consumption as well as withdrawals? I know, for example, that the USGS 
currently only collects water withdrawal data.
    Answer. Yes. The USGS defines water use in the following way: 
``...water use pertains to the interaction of humans with and influence 
on the hydrologic cycle, and includes elements such as water 
withdrawal, delivery, consumptive use, wastewater release, reclaimed 
wastewater, return flow, and instream use.'' (Page 49, USGS Circular 
1344--Estimated Use of Water in the United States in 2005, Kenny, J.F. 
et al, 2009)
    It is true that the USGS 2005 water use circular, referenced above, 
only provides water withdrawal information for the Nation, and the USGS 
has not provided consumptive use information since its water use 
circular for 1995, primarily because consumptive use is frequently not 
reported or is reported inconsistently from state to state. However, 
the USGS is reinstating consumptive use reporting for thermoelectric 
cooling water for year 2010 in a report that was issued in September 
2014. This consumptive use information will be based on a model that 
the USGS has developed and published in a report entitled ``Methods for 
estimating water consumption for thermoelectric power plants in the 
United States'' (Diehl, T.H.,et. al., 2013, U.S. Geological Survey 
Scientific Investigations Report [SIR] 2013-5188, 78 p.). That report 
(SIR 2013-5188) was released to the public in November 2013. The USGS 
is striving to reinstate consumptive use reporting for other water use 
sectors. Consumptive use information is important in water availability 
management and central to the energy-water nexus. The next sector of 
water use that we will tackle for consumptive use information will be 
the public water supply sector.
      Responses of Tom Iseman to Questions From Senator Jeff Flake
    Question 1. In your testimony you raise an important issue 
regarding the role of states and state regulators with regard to both 
water supplies, which are largely governed by state water law, and 
energy supplies, which (at least for investor-owned utilities in 
Arizona) are overseen by state regulators. Yet, you note that S.1971 
does not address this important state responsibility. How could this 
bill be improved to better account for the role that states play in 
regulating and managing water and energy supplies?
    Answer. States play a key role in allocating and administering 
water, and the Department will continue to work with the states and 
other stakeholders in energy-water efforts. S. 1971 may be improved by 
directing the Committee to consult with states and stakeholders as it 
fulfills its duties.
    Question 2. Given the Department of the Interior's role as trustee 
for Native Americans, I was surprised to see that your testimony did 
not include any discussion of how S.1971 would impact Native Americans. 
Arizona is home to 22 federally recognized Indian tribes and 
communities. It is critically important that any conversation about the 
energy-water nexus include those communities. For example, over the 
course of the last few years, EPA has sought to impose a regional haze 
plan on a power plant in Arizona that is located on the Navajo 
Reservation. The Bureau of Reclamation partially owns the plant. It 
uses the power output to pump water from the Colorado River to central 
Phoenix, where some of the water is used to satisfy Indian water 
settlement delivery obligations. Can you explain how the Department 
would represent the critical energy-water nexus issues as they relate 
to Native American communities, such as those in Arizona?
    Answer. The Department recognizes and is fully engaged in its 
federal trust responsibility to Native American tribes. Native American 
communities are valuable partners to the Department, and the Department 
is committed to working with tribes on a government-to-government 
basis. Reclamation is committed to actively seeking partnerships with 
Native American tribes to ensure that tribes have the opportunity to 
participate fully in the Reclamation programs that affect the 
development and management of tribal water and related resources. We 
have worked closely with the Navajo Nation and other affected tribes to 
address the energy-water issues you identify at Navajo Generating 
Station. If S 1971 is enacted, the Department would look forward to the 
opportunity to engage in a more systematic information and data 
exchange on energy-water issues with our tribal partners, as described 
under Section 3 of the legislation. Tribes would also likely benefit 
from the identification and documentation of Federal and non-Federal 
programs and funding opportunities called for in S. 1971.
    Question 3. EPA is specifically mentioned among the departments and 
agencies that would be part of the coordinated effort outlined in 
S.1971. What role would the Department envision for the energy-water 
nexus committee relative to EPA's rulemaking process, specifically 
EPA's promulgation of regulations that impact energy and water 
production and deliveries?
    Answer. New water treatment, thermoelectric cooling, and other 
technologies have the potential to increase the array of options to 
protect the environment while also saving energy and/or water. EPA's 
current long term engagement with DOI and other interagency 
collaborators pursuing research into such technologies helps inform 
EPA'S rulemaking process.
    Question 4. How does the Department believe the coordinated 
approach in S.1971 will enhance federal policy, as opposed to leading 
to another layer of bureaucracy?
    Answer. The Department supports the type of coordination and data 
exchange called for in S. 1971 and already has a number of programs in 
place that involve coordination with other federal agencies to address 
the energy-water nexus, as discussed in the testimony. This ongoing 
coordination will continue to help close existing data gaps, provide a 
more systematic and comprehensive view of energy-water issues, and 
increase our understanding of water supply availability to benefit 
water and energy decision makers. As indicated in the testimony, the 
Department would need to more closely evaluate the commitments and 
reporting requirements in the bill and the additional resources that 
may be required to carry them out.
                                 ______
                                 
   Responses of Jonathan Pershing to Questions From Senator Murkowski
    Question 1. In the NEWS Act, as in my energy-water nexus 
whitepaper, I call for better and closer collaboration with external 
stakeholders--and especially with the private sector--to promote and 
develop innovative and advanced technologies and scientific tools for 
water for energy and energy for water systems. Could you please share 
with us the current state of affairs and how would you envision 
expanding and enhancing such collaborations?
    Answer. We agree that consultation and ongoing communication with 
stakeholders is critical to understanding problems and identifying 
possible solutions across the energy-water nexus. The release of The 
Water-Energy Nexus: Challenges and Opportunities has encouraged the 
private sector, municipal actors, and other stakeholders to reach out 
to DOE. We have both been following up with those that have contacted 
us, and are also actively working to strengthen our relationships in 
the sector. Key entry points to the private and municipal community are 
industrial associations and research institutes. We are currently 
developing connections with organizations such as the Water Environment 
Federation (WEF), the Water-Environment Research Foundation (WERF), and 
the National Association of Clean Water Agencies (NACWA) to address 
opportunities in the water sector. Organizations in the energy sector 
(many of which have a longer history of collaboration with DOE), such 
as the Electric Power Research Institute (EPRI) and the National 
Electrical Manufacturers Association (NEMA), have recently highlighted 
their interest in water. DOE is further expanding its network by 
participating in relevant conferences. In the coming months, we are 
considering organizing several workshops on key topics as a follow-up 
to our report, and will use these as a further means of gaining insight 
from the private sector and others.
    Question 2. As we've heard today, the DOE and DOI have been working 
together in the past on data collection related to, for example, 
hydropower development in the U.S. and perhaps on other issues as well.
    How do you envision the expansion of such collaborative efforts in 
the near future, given that the NEWS Act calls for the Secretaries of 
Energy and Interior to work closely together as the co-chairs of the 
proposed Nexus of Energy and Water for Sustainability federal 
coordination committee (the NEWS Committee)?
    Answer. DOE and Department of Interior (DOI) have complementary 
roles and interests. The two agencies are currently working together in 
a variety of areas. For example, the U.S. Geological Survey (USGS) is 
working with the Energy Information Administration (EIA) to improve 
water consumption data in electricity generation. DOE shares an 
interest in the beneficial use of produced water with the Bureau of 
Reclamation. We are exploring opportunities to collaborate on the 
development and use of hydrologic models. DOE and DOI are also 
collaborating with other agencies. For example, A Memorandum of 
Agreement (MOA) is in place among DOE, DOI, and the Environmental 
Protection Agency (EPA) on unconventional oil and gas development. In 
addition, DOE, DOI, and the Army Corps of Engineers (ACE) have an MOU 
on hydropower.
    Question 3. The NEWS Act calls for a strong research and 
development component of any federal coordination effort to advance 
scientific and technological innovations to increase the efficiencies 
and reduces the costs of innovative energy and water related 
technologies. It appears that the recent organizational changes at DOE 
that brought together the Science and Energy related programs under one 
Undersecretary for Science and Energy present a unique opportunity to 
do just that. Can you please share your views on that, and 
specifically, on the role ARPA-E can play--particularly if the current 
nominee to head ARPA-E, Dr. Ellen Williams, who has demonstrated a 
strong interest in the energy-water nexus issues in her former role as 
BP's Chief Scientist, is confirmed?
    Answer. DOE's Office of Science, Energy program offices, ARPA-E, 
and the Office of Energy Policy and Systems Analysis (EPSA) have all 
played important roles in DOE's recent water-energy work. Moving 
forward, DOE anticipates that the various offices will continue to work 
together productively.
    Technology innovations that reduce costs and improve efficiencies 
are often the result of focused research and development that builds on 
fundamental research. Both fundamental and applied sciences also inform 
a full range of modeling and analysis needed to support understanding 
and inform decision-making. The Water-Energy Nexus: Challenges and 
Opportunities lays out possible next steps in all of these areas. DOE's 
new organizational structure made it easier to recruit authors for this 
report from both the Office of Science and several Energy program 
offices. EPSA also provided leadership for this cross-cutting work.
  Responses of Jonathan Pershing to Questions From Senator Jeff Flake
    Question 1. EPA is specifically mentioned among the departments and 
agencies that would be part of the coordinated effort outlined in 
S.1971. What role would the Department envision for the energy-water 
nexus committee relative to EPA's rulemaking process, specifically 
EPA's promulgation of regulations that impact energy and water 
production and deliveries?
    Answer. New water treatment, thermoelectric cooling, and other 
technologies have the potential to increase the array of options to 
protect the environment while also saving energy and/or water. EPA's 
current long term engagement with DOE and other interagency 
collaborators pursuing research into such technologies helps inform 
EPA's rulemaking process.
    Question 2. How does the Department believe the coordinated 
approach in S.1971 will enhance federal policy, as opposed to leading 
to another layer of bureaucracy?
    Answer. Existing interagency coordination processes provide 
mechanisms for agencies to work together on topics where they have a 
shared interest. In most relevant areas, collaboration and coordination 
are already taking place. For example, there is an MOA among DOE, DOI, 
and EPA on unconventional oil and gas development and an MOU on 
hydropower among DOE, DOI, and the Army Corps of Engineers (ACE). In 
addition, there is collaboration between USGS and EIA on water 
consumption data in thermoelectric generation.
                                 ______
                                 
    Response of Nicole T. Carter to Question From Senator Murkowski
    Question 1. As we try to address the recurring drought conditions 
across the nation, could you discuss your views on the obvious and not 
so obvious links between the energy-water nexus issues and water 
shortages and mitigation strategies? How can S. 1971 address these 
links?
    Answer. Drought Exposes the Value of Decoupling Energy and Water 
Systems.--Drought exposes how dependent activities and populations are 
on water. It is often during drought when the economic, social, and 
environmental value of available freshwater is highest. That is, 
scarcity, including scarcity caused by drought, often drives up the 
value of water in all its uses. Therefore, the value of decoupling 
energy sector activities and processes from freshwater often pays off 
most during drought.
    Water Shortages Often Tighten the Links of the Energy-Water 
Nexus.--Some activities negatively impacted by drought can be offset by 
activities in other regions not experiencing drought (e.g., corn, 
wheat, hay, and cotton production), while other water uses are harder 
to reduce quickly or substitute, such as drinking water, water for 
other public health and safety needs, and in-stream flows for 
ecosystems and species. Technologies exist to augment municipal water 
supplies during a drought, but some of these technologies are 
particularly energy-intense, such as standard desalination technologies 
(reverse osmosis dominates desalination in the United States). That is, 
desalination, which may produce one of the most drought-resilient 
supplies, also is among the most energy-intense forms of municipal 
water supply. Numerous innovative desalination technologies, energy 
recovery technologies within desalination facilities, and combined 
desalination and renewable electricity generation may provide 
opportunities to reduce the energy inputs associated with desalination, 
thereby increasing its appeal during drought as well as under normal 
water conditions. Other water supply augmentation options such as long-
distance water transport also can consume significant energy depending 
on the amount of pumping required. For the electricity sector, less 
water-dependent cooling may allow power plants to avoid generation 
curtailments that would otherwise result due to water withdrawal limits 
during low flows. Available dry and hybrid power plant cooling 
technologies often are more expensive and less efficient at cooling 
than the more water-intense cooling technologies currently used.
    Science and Technology Can Reduce Barriers and Expand Options for 
Decoupling Energy and Water Systems.--S. 1971 would require the 
creation of a National Science and Technology Council committee (or 
subcommittee) to coordinate federal energy-water nexus science and 
technology activities. The Committee would guide how the federal 
research and development enterprise can address energy-water nexus 
challenges, including activities aimed at improving water-efficient 
power plant cooling and reducing energy requirements for desalination, 
water treatment, and water transport. Advancements in technologies 
relevant to the energy-water nexus may assist to reduce energy and 
water demand and disruptions during drought, thereby creating more 
resilient water and energy systems and sectors. While S. 1971 makes no 
specific mention of drought, science and technology that allow the 
energy sector to reduce its demand for water may be most valuable 
during a drought. The science and technology that would be guided by 
the NSTC Committee created by S. 1971 may improve drought resilience by 
reducing the water demand of the energy sector over the long term. 
Through inclusion of federal entities like the Department of 
Agriculture and the National Oceanic and Atmospheric Administration 
within the NSTC Subcommittee, S. 1971 would appear to provide a forum 
for identifying how guided federal science and technology investments 
can effectively address the energy-water nexus to further drought 
mitigation.
    Drought Resilience is Determined by Both Long-Term and Drought-
Specific Actions.--Responding to drought is not only defined by the 
actions and policies undertaken in midst of a drought, but also by the 
actions and policies that determine investments, decisions, behavior, 
and trends over the long term. Therefore, it is not just the 
technologies, action, and programs specific to drought that constitute 
drought mitigation, but also the science, actions, and programs that 
establish the long-term trajectory of water use that influence local, 
regional, and national resilience to water shortages.
                                 ______
                                 
   Response of Mary Ann Dickinson to Question From Senator Murkowski
    Question 1. Your organizations have done quite a bit to better 
understand the implications the energy-water nexus has for your members 
from the electric and water utilities, research community, and others. 
In my energy-water nexus white paper from this past May, I recommend 
that we ought to take a serious look at establishing an external 
organization, such as a foundation, to implement a robust multi-
stakeholder energy-water nexus program. The thought is that such a 
congressionally-mandated organization could raise private money to 
support collaborative efforts between all stakeholders, both private 
and federal. Can you please share your thoughts on this?
    Answer. The Alliance for Water Efficiency shares the view expressed 
in the White Paper that ``a national platform be established for 
exchanging information, data collection, dissemination and 
standardization; identification of innovative technologies and 
methodologies, including best practices and deployment incentives, and 
innovative RD&D projects.''\1\ We identified the need for such a 
platform in our Blueprint for Action report\2\ where we highlighted the 
need for coordinated national and state actions in the areas of 
policies, best practice programs, codes and standards, and research. In 
the report, we identified eight thematic areas that would benefit from 
the creation of such a platform to coordinate these activities:
---------------------------------------------------------------------------
    \1\ ``The Energy -Water Nexus: Interlinked Resources That Are Vital 
for Economic Growth and Sustainability'', White Paper published by US 
Senator Lisa Murkowski, May 2014
    \2\ Addressing the Energy-Water Nexus: A Blueprint for Action and 
Policy Agenda, Alliance for Water Efficiency and the American Council 
for an Energy-Efficient Economy, May 2011

          1. Increase the level of collaboration between the water and 
        energy communities in planning and implementing programs.
          2. Achieve a deeper understanding of the energy embedded in 
        water and the water embedded in energy.
          3. Learn from and replicate best practice integrated energy-
        water efficiency programs.
          4. Integrate water into energy research efforts and vice 
        versa.
          5. Separate water utility revenues from unit sales, and 
        consider regulatory structures that provide an incentive for 
        investing in end-use water and energy efficiency.
          6. Leverage existing and upcoming voluntary standards that 
        address the energy-water nexus.
          7. Implement codes and mandatory standards that address the 
        energy-water nexus.
          8. Pursue education and awareness opportunities for various 
        audiences and stakeholders.

    The basic question is: How should this national platform be created 
and structured? Should it be developed and assigned to an existing 
federal agency such as the Department of Energy or the Council on 
Environmental Quality? Should it be a new public-private entity created 
by Congress for this purpose? Or should the new entity be entirely 
private and self-governed--perhaps a non-profit organization or a 
private foundation?
    In our view, the answer is likely a combination of the above. 
Organizations already exist that are separately working on the energy-
water nexus, particularly in the non-profit sector, although the work 
is largely uncoordinated at present. Federal agencies such as the 
Department of Energy and the Department of Defense already have 
activity underway on this topic. And foundations have started directing 
some of their philanthropy funding to climate change and energy-water 
issues. As an example, the Alliance for Water Efficiency's energy-water 
nexus work was funded by the Turner Foundation and The Kresge 
Foundation. The Mitchell Foundation funds energy-water nexus research 
in Texas. In our view, the existing landscape of organizations should 
provide some good candidates. The Energy Foundation or the National 
Science Foundation, for example, would be great vehicles for national 
coordination of these issues and additional directed funding on this 
topic.
    So if there are existing players out there already, why has this 
``platform'' not yet happened? The reason is that there isn't a 
coordinated focus or specific assignment to any one entity. Creating a 
brand new foundation might be one way to do this, since a Congressional 
mandate for creating such a foundation brings cachet and status for the 
energy-water nexus issue. But frankly there is nothing to prevent the 
existing organizations out there from doing it now. The fact is that 
the foundation world--and particularly the Energy Foundation--has been 
focused on funding other initiatives or only funding energy-water work 
in a very limited way.
    In our view the platform activity would be best managed on a 
centralized basis by a federal agency such as the Department of Energy, 
working in tandem with a foundation such as the Energy Foundation for 
additional needed research funding. Creating a brand new separate 
foundation might work, but it does presume that there is significant 
opportunity for private donations. A model for this idea is the 
National Park Foundation, chartered by Congress in 1967 as the only 
national charitable nonprofit whose sole mission is to directly support 
the National Park Service. It does this by raising money from other 
foundations, from corporations, and from private citizens--and by all 
accounts has been highly successful in raising money to support the 
national park system.
    However, we don't believe that this same model for a private 
foundation to support energy-water nexus activities will work as 
successfully as the National Park Foundation does. There isn't the same 
direct and emotional connection to the energy and water issue that 
people clearly feel for preservation of their national parks. The 
extent of individual citizen contributions will be very small. 
Corporate contributions will be more likely to occur, but it will need 
to be clear how the corporate donors may be involved in governance of 
the foundation and the eventual determination of the funded projects. 
An important consideration will be how to involve them without creating 
obvious conflicts of interest that might violate the IRS 501(c)(3) 
private foundation rules.
                                 ______
                                 
  Response of Anda Ray to Question From Senators Murkowski and Schatz
    Question 1. Your organizations have done quite a bit to better 
understand the implications the energy-water nexus has for your members 
from the electric and water utilities, research community, and others. 
In my energy-water nexus whitepaper from this past May, I recommend 
that we ought to take a serious look at establishing an external 
organization, such as a foundation, to implement a robust multi-
stakeholder energy-water nexus program. The thought is that such a 
congressionally-mandated organization could raise private money to 
support collaborative efforts between all stakeholders, both private 
and federal. Can you please share your thoughts on this?
    Answer. Thank you for your question regarding the establishment of 
a congressionally mandated external organization that could raise 
private money to implement a multi-stakeholder energy-water nexus 
program. I appreciate the opportunity to comment on this issue.
    EPRI has extensive experience working with both public and private 
stakeholders at the energy-water nexus. I am pleased to share insights 
from this experience as they relate to the establishment of such an 
external organization.
    EPRI was founded on a collaborative model in which members pool 
funds in order to advance a common research agenda for the public good. 
This model has worked well for over 40 years.
    Because energy and water are critical to the very existence of our 
society, a collaborative approach is particularly important in the 
energy-water nexus space. Sustainable water resource management, for 
example, involves collaborative decision-making across multiple 
societal and economic sectors, including, energy, municipal, 
residential, agricultural and industrial stakeholders. A 
congressionally established external organization might find ways to 
facilitate cooperation, collaboration, and coordination around the 
energy-water nexus.
    EPRI's collaborative model is strengthened when our work is 
leveraged with state and federal funds. However, no government funding 
is proposed for the establishment or operation of this external 
organization. Additional federal funds, with a focus on ``leveraging'' 
private/public resources, could help address research needs currently 
unmet by the private sector and take better advantage of private sector 
funding. Leveraging funds involves specific guidelines (for example, 
provisions addressing proprietary information), but also has the 
embedded flexibility to provide opportunities for a diverse set of co-
funders including government agencies, vendors, academia, and non-
governmental organizations.
    Several questions are left unaddressed by the proposal in its 
current form. For example, who could do the work of the external 
organization (government, non-profits, private sector, all of the 
above)? Who would own any work created by the external organization? 
What would be the Scope of the foundation/external organization? What 
would it NOT be?
    Again, I appreciate the opportunity to provide written comment for 
the record on this issue. Please do not hesitate to contact me if I can 
be of further assistance.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                                      May 15, 2014.

Hon. Mary Landrieu,
Chair,
Hon. Lisa Murkowski,
Ranking Member, Senate Committee on Energy and Natural Resources, 304 
        Dirksen Senate Office Building, Washington, DC.
    Dear Senators Landrieu and Murkowski:

    The Alliance for Water Efficiency (AWE) and the undersigned 
organizations would like to express our strong support for S. 1971, The 
Nexus of Energy and Water for Sustainability (NEWS) Act of 2014, and we 
thank you for your leadership on this important legislation. This bill 
would provide direction for federal coordination of water and energy 
programs within the National Science and Technology Committee, 
specifically to coordinate and streamline federal activities related to 
the management of the energy-water nexus. Passage of this bill will be 
a critical step in promoting better joint management of these two 
important national resources beginning at the federal level.
    AWE is a stakeholder based non-profit organization dedicated to the 
efficient and sustainable use of water. Our members and supporters 
include regional, state and local water utilities, plumbing, appliance, 
and irrigation manufacturers, governmental planning agencies, 
environmental and energy advocacy organizations, water-use experts, 
corporations and individuals--all of whom share an interest in 
promoting water efficiency and sustainability in the United States and 
Canada.
    We are very interested in the energy-water nexus and have done 
considerable work in this area to highlight its importance. We stand 
ready to assist you in the successful passage of this bill.
            Sincerely,
                    Alliance for Water Efficiency; Alliance to Save 
                            Energy; American Council for an Energy-
                            Efficient Economy; American Standard; Amy 
                            Vickers & Associates, Inc.; Cahaba River 
                            Society; Center for Water-Efficient 
                            Landscaping; Ecoblue; Econics; 
                            Environmental Defense Fund; Global Water 
                            Policy Project; IAPMO; Kohler Co.; KWC 
                            America; Marin Municipal Water District; 
                            National Association of Water Companies; 
                            National Insulation Association; Neponset 
                            River Watershed Association; New York City 
                            Environmental Protection; Plumbing 
                            Manufacturers International; Round Rock, 
                            TX, City of; SeaCo Supply Corporation; 
                            Texas Water Foundation; Toto USA; Utah 
                            Water Conservation Forum; WasteWater 
                            Education; Water Demand Management; 
                            Waterless Co;. Western Resource Advocates; 
                            Woodcock & Associates, Inc.
                                 ______
                                 
  Statement of Dan Keppen, Executive Director, Family Farm Alliance, 
                           Klamath Falls, OR
    On behalf of the Family Farm Alliance, I write to express our 
strong support for S. 1971, the ``Nexus of Energy and Water for 
Sustainability Fact of 2014'' (NEWS Act of 2014).
    The Alliance is a grassroots organization of family farmers, 
ranchers, irrigation districts and allied industries in 16 Western 
states. Several of our members are mutual ditch and irrigation 
districts. The Alliance is focused on one mission: To ensure the 
availability of reliable, affordable irrigation water supplies to 
Western farmers and ranchers. S. 1971 calls for better coordination and 
management of relevant energy-water nexus activities across the Federal 
Government by establishing a clear mechanism for this purpose.
    Western farmers and ranchers are concerned with the significant new 
overall power demands that are already being felt with demand growing 
in the future. The total water consumed by electric utilities accounts 
for 20 percent of all the nonfarm water consumed in the U.S. Vast 
amounts of water are used every day to produce vital fuels and to cool 
power plants in the United States. Without this water supply, most of 
our electricity would stop flowing and our economy and other essential 
functions would cease. At the same time, a great deal of energy is 
needed to treat, transport and convey water throughout the Western 
U.S., not only to support economic growth and well-being but also to 
sustain basic life. These inseparable links of ``water for energy'' and 
``energy for water'' comprise the energy-water nexus.
    The NEWS Act instructs the Director of the Office of Science and 
Technology Policy (OSTP) to establish a committee or a subcommittee 
under the National Science and Technology Council (NSTC) to coordinate 
and streamline the activities of all Federal departments and agencies 
on energy-water nexus issues. This new panel will be co-chaired by the 
Secretaries of Energy and Interior and will be tasked with identifying 
all relevant energy-water nexus activities across the Federal 
Government; enhancing the coordination of effective research and 
development activities (both on-going and in the future); working to 
gather and disseminate data to enable better practices; and exploring 
relevant public-private collaboration. The bill also calls for the 
Office of Management and Budget to submit to the relevant congressional 
committees a socalled ``cross-cut'' budget soon after enactment of this 
act. The cross-cut budget will detail various expenditures across the 
Federal Government related to energy-water activities and will greatly 
assist in coordinating and streamlining these activities and 
identifying and eliminating duplicative efforts to the extent possible.
    This bill is expected to be ``budget-neutral''. The NSTC is 
expected to utilize existing coordination mechanisms with minimal or no 
additional spending.
    This is a very large mission, and we anticipate that it may be 
difficult to implement, due to the significant coordination that will 
need to occur, with a large number of entities. With that said, we 
believe this is an important bill, and the Family Farm Alliance urges 
your Committee to consider and pass this important legislation. I 
encourage you or your staff to contact me at (541)-892-6244 if you have 
any questions.
                                 ______
                                 
Statement of Melissa Meeker, Executive Director, WateRuse Association, 
                             Alexandria, VA
    On behalf of the WateReuse Association (WateReuse), I write to 
express our strong support for S. 1971, the ``Nexus of Energy and Water 
for Sustainability Act of 2014'' (NEWS Act of 2014).
    WateReuse represents 400 organizational members, including water 
agencies and corporations throughout the United States who actively 
practice and support water reuse and recycling. Water recycling and 
reuse remains the one reliable and readily available new source of 
fresh water across the Nation, and we believe the reuse and recycling 
of water to be a key part of intelligent conservation and management of 
both energy and water resources that will help us meet the demands of 
tomorrow.
    S. 1971 calls for better coordination and management of relevant 
energy-water nexus activities across the Federal Government by 
establishing a multiagency process for this purpose.
    WateReuse believes that we, as a Nation must focus on the 
relationship that energy and water have with one another in order to 
provide sustainable supplies of these important resources in the 
future. WateReuse believes that overall energy demands will continue to 
grow, putting even more pressure on the limited water resources so 
important to the Nation, as large volumes of water are used daily in 
the production of electricity. In the United States, for example, the 
total water consumed by electric utilities accounts for 20-percent of 
all the nonagricultural water consumed in the U.S. At the same time, 
large amounts of energy are used to treat and move water to people, 
farms and factories. In our view, these two resources must be 
considered as connected in the planning and development of future 
sources of both energy and water supplies in order for the Nation to 
continue to grow and prosper.
    The reuse and recycling of water must be considered a significant 
tool that can be used to manage both energy and water resources. In 
many instances, raw water supplies must be pumped, transported, and 
treated using tremendous energy resources in the process to meet water 
demands. This water is then used and treated again, many times to be 
``thrown away''. By reusing this water, we can recapture the energy 
resources already invested by simply administering a final treatment 
and recycling this water back into the system to meet ongoing demands. 
This additional supply of recycled water can also conserve the energy 
used in transporting and pumping raw water by reducing and replacing 
the demand for that raw water. In summary, water reuse and recycling 
projects can conserve both energy and water by utilizing the water that 
is already on site and readily available.
    WateReuse supports the fact that the NEWS Act would coordinate and 
streamline the activities of all Federal departments and agencies on 
energy-water nexus issues. The Act would engage the Secretaries of the 
Departments of Energy and the Interior and task them with identifying 
all relevant energy-water nexus activities across the Federal 
government, including the Environmental Protection Agency, and 
enhancing the coordination of effective research and development 
activities. Also, the Act would require the Federal agencies to gather 
and disseminate data to enable better practices and explore relevant 
public-private collaboration. We believe the NEWS Act can provide new 
opportunities to conserve and manage our limited energy and water 
resources, as well as provide a streamlined, coordinated approach to 
energy-water nexus partnerships with the Federal government, especially 
in the areas of enhanced project funding and financing, and on the 
research and development of next generation water reuse technologies.
    In conclusion, WateReuse thanks you for your leadership on this 
important nexus, and urges your Committee to consider and pass this 
important legislation. I encourage you or your staff to contact me at 
(703) 548-0880 Ext. 102 if you have any questions.
                                 ______
                                 
  Statement of Evan R. Gaddis, President and CEO, National Electrical 
                 Manufacturers Association, Rosslyn, VA
    The National Electrical Manufacturers Association (NEMA) commends 
you for advancing the important issue of the energy-water nexus.
    As you know, power generation is the number one use of freshwater 
in the United States, accounting for roughly 201,000 million gallons 
per day. Similarly, water delivery is heavily dependent on energy in 
the extraction, treatment, and distribution of the water supply. 
Estimates of the amount electricity needed at the state level for the 
purpose of water processing can be as high as 19 percent of their total 
energy consumption.
    NEMA and its 400-plus member companies manufacture more than 50 
types of products that provide greater energy efficiency. For example, 
with the right combination of efficient motors, drives and motor 
control systems, NEMA members' technologies can reduce both the energy 
needed and operating costs of treating and transporting water. These 
technologies are ready today and greater deployment of them will help 
to address the challenges associated with the energy-water nexus.
    More specifically, S. 1971, the Nexus of Energy and Water for 
Sustainability (NEWS) Act of 2014 is an important step that will bring 
together government, industry, and other stakeholders to develop 
practical responses to the energy-water nexus.
    We appreciate your efforts to bring greater attention to the 
energy-water nexus. NEMA and its members stand ready to assist you and 
your staff.
                                 ______
                                 
  Statement of Dain M. Hansen, Vice President, Government Relations, 
     International Association of Plumbing and Mechanical Officials
    On behalf of The IAPMO Group, thank you for introducing S.1971, 
``The Nexus of Energy and Water for Sustainability Act of 2014.'' The 
NEWS Act will institute a clear mechanism for interagency coordination 
across the federal government by establishing a committee devoted to 
identifying all energy-water nexus issues. Consequently, this 
legislation will provide a much-needed platform for collaboration among 
all stakeholders on relevant research and development efforts, enabling 
better practices. As an organization invested in resource conservation 
and the advancement of technology, we commend your efforts on this 
front.
    The links between water and energy are undeniable, as the 
production of one resource is highly dependent on the utilization of 
the other. In fact, 86% of electricity in the United States is produced 
utilizing steam turbines in thermoelectric power generating stations--
equalling more than 3.4 trillion kilowatt hours (kWh.) Additionally, 
more than 12 billion gallons of freshwater are consumed daily, cooling 
the power plants that produce the fuels upon which our economy relies. 
Conversely, vast amounts of energy and electricity are expended in the 
treatment and transportation of water. The availability of life's most 
basic and essential need is greatly dependent upon large amounts of 
energy and it should be the top priority of our lawmakers to ensure its 
security.
    Along these lines, I'd like to call your attention to the National 
Institute of Building Science's 2013 Report to the President of the 
United States. IAPMO chairs the Energy and Water Topical Committee for 
the Institute's Consultative Council and this year's report contains 
specific recommendations pertaining to the water-energy nexus, along 
with additional recommendations pertaining to energy and water 
efficiency. We welcome you to download the report at: http://
c.yrncdn.com/sites/www.nibs.org/resource/resmgr/
FilesNIBS_2013_AnnualReport_web.pdf.
    Our need for water and energy cannot be avoided, but our use of 
them can be improved. The NEWS Act will encourage and foster an 
environment of open and continuous communication among all 
stakeholders, greatly enhancing research efforts and allowing for 
valuable knowledge and data to be shared effectively. This legislation 
will help us to secure our nation's resources for generations to come.
    Thank you again for all of your work and introducing S.1971. We 
support this legislation and look forward to working with you to ensure 
its passage.
                                 ______
                                 
  Statement of Ken Kirk, Executive Director, National Association of 
                          Clean Water Agencies
    The National Association of Clean Water Agencies (NACWA) is pleased 
to support S. 1971, The Nexus of Energy and Water for Sustainability 
Act of 2014 (NEWS Act), which recognizes the important connection 
between energy and water by creating a committee within the National 
Science and Technology Committee to coordinate and streamline federal 
activities related to the management of the energy-water nexus; the 
notion that all forms of energy production require water and that our 
use of water requires energy.
    In many communities around the country, public wastewater utilities 
are the single largest consumer of energy due to the vast amount of 
power needed to move, treat, and reclaim millions of gallons of 
wastewater every day. This is not only resource intensive, it is 
expensive for the ratepayers who bear the costs. As such, improving 
energy efficiency within the wastwater sector is an absolute priority 
for NACWA's member utilities. Wastewater utilities can also provide 
recycled water for colling sources. By embracing new technologies and 
cutting-edge practices, clean water utilities have become a vital 
partner in this country's work to manage our energy and water resources 
more efficiently, effectively, and affordably.
    The energy-water nexus is a central to NACWA's Water Resources 
Utility of the Future campaign, which recognizes the important 
innovation occurring within the wastewater sector to help communities 
better manage their clean water needs. NACWA extends its thanks to you 
for for your leadership in this area, and urges all Members of Congress 
to support this important legislation.

                                    

      

</pre></body></html>
